<html>
<title> - THE EFFECTIVENESS OF SUBSTANCE ABUSE EDUCATION AND TREATMENT PROGRAMS IN PREVENTION OF CRIME</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
 THE EFFECTIVENESS OF SUBSTANCE ABUSE EDUCATION AND TREATMENT PROGRAMS 
                         IN PREVENTION OF CRIME

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 29, 2002

                               __________

                           Serial No. 107-219

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003

87-384 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
BENJAMIN A. GILMAN, New York         ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida,               BERNARD SANDERS, Vermont
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JIM TURNER, Texas
DOUG OSE, California                 THOMAS H. ALLEN, Maine
JO ANN DAVIS, Virginia               JANICE D. SCHAKOWKY, Illinois
DAVE WELDON, Florida

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          Christopher Donesa, Staff Director and Chief Counsel
       Nicolas P. Coleman, Professional Staff Member and Counsel
                         Nicole Garrett, Clerk



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 29, 2002....................................     1
Statement of:
    Housler, Reverend Albert R., director of the Faces of 
      Recovery...................................................    78
    Howard, Constance, State representative, 32nd District, State 
      of Illinois................................................    33
    Lieggi, Frank A., executive director, the Way Back Inn, Inc.; 
      Bettie Foley, associate director, Haymarket Center; Bradley 
      D. Olson, Center for Community Research, DePaul University; 
      and Dennis Deer, president, Deer Re Hab Services...........     8
    McDermott, Terrie, Cook County Sheriff's Office; Sharron D. 
      Matthews, director of public policy and advocacy, Safety 
      Foundation; Tim Whitney, special counsel, TASC, Inc.; 
      Dorothy M. Reid, president, Oak Park NAACP Branch; and 
      Jesus Reyes, director, social services, Circuit Court of 
      Cook County................................................    49
Letters, statements, etc., submitted for the record by:
    Deer, Dennis, president, Deer Re Hab Services, prepared 
      statement of...............................................    27
    Foley, Bettie, associate director, Haymarket Center, prepared 
      statement of...............................................    15
    Howard, Constance, State representative, 32nd District, State 
      of Illinois, prepared statement of.........................    35
    Lieggi, Frank A., executive director, the Way Back Inn, Inc., 
      prepared statement of......................................     9
    Matthews, Sharron D., director of public policy and advocacy, 
      Safety Foundation, prepared statement of...................    57
    McDermott, Terrie, Cook County Sheriff's Office, prepared 
      statement of...............................................    52
    Olson, Bradley D., Center for Community Research, DePaul 
      University, prepared statement of..........................    20
    Reid, Dorothy M., president, Oak Park NAACP Branch, prepared 
      statement of...............................................    67
    Reyes, Jesus, director, social services, Circuit Court of 
      Cook County, prepared statement of.........................    73
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     3
    Whitney, Tim, special counsel, TASC, Inc., prepared statement 
      of.........................................................    63

 THE EFFECTIVENESS OF SUBSTANCE ABUSE EDUCATION AND TREATMENT PROGRAMS 
                         IN PREVENTION OF CRIME

                              ----------                              


                         MONDAY, JULY 29, 2002

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                       Chicago, IL.
    The subcommittee met, pursuant to notice, at 10:05 a.m., at 
Representative Danny Davis' District Office, 3333 West 
Arthington Street, Suite 130, Chicago, IL, Hon. Mark E. Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder and Davis.
    Staff present: Nicolas P. Coleman, professional staff 
member and counsel; Nicole Garrett, and Conn Carroll, clerks; 
and Christopher Donesa, staff director and chief counsel.
    Mr. Souder. We are going to go ahead and get started. If 
you can start taking your seats, and the subcommittee will come 
to order.
    Good morning, and thank you all for coming. It's a great 
pleasure to be here in Chicago today at the invitation of 
Congressman Danny Davis, a member of our Subcommittee on 
Criminal Justice, Drug Policy and Human Resources.
    Drug treatment and substance abuse education are two of the 
most important weapons we have in reducing drug addiction and 
the death, and the death, crime and misery it creates. Two of 
the three main goals set forth in the National Drug Control 
Strategy announced earlier this year by President Bush are 
related to prevention and treatment. Stopping use before it 
starts, through education and community action, through helping 
America's drug users by getting treatment resources where they 
are needed.
    Today's hearing focuses on these two goals. First, we will 
look at substance abuse prevention. In announcing the strategy, 
the President said, ``It is important for Americans and 
American families to understand this: that the best way to 
affect supply, is to reduce demand for drugs, to convince our 
children that the use of drugs is destructive in their lives.'' 
The President requested approximately $900 million for fiscal 
year 2003 for the Federal Government's primary drug abuse 
education programs. The Safe and Drug-Free School Programs, the 
Drug-Free Communities Program, and the National Youth Anti-Drug 
Media Campaign and Parent Drug Corps programs. Although, there 
is broad support for the concept of substance abuse prevention 
through education, disagreements remain on how best to pursue 
that strategy. Not every program is as effective as some 
others. Many are more effective if carried out by local 
communities, but some may require Federal supervision and 
leadership.
    Second, we will look at drug treatment. Drug treatment 
represents a growing, but sometimes controversial strategy of 
reducing drug-related crime and health problems. The number of 
Federal dollars appropriated for drug treatment has steadily 
climbed over the past 25 years, from $120 million in 1969, to 
$1.1 billion in 1974, to about $3.2 billion in the year 2000. 
This represents about 20 percent of our total Federal drug 
control budget. The National Institute on Drug Abuse [NIDA] 
estimates that drug treatment reduces use by about 40 to 60 
percent, and significantly decreases criminal activity after 
treatment. While drug treatment has proved effective in many 
cases, many questions about how to measure treatment success 
remain. Again, there are significant differences in the success 
rates of various programs, and what works in one community may 
not work as well in another.
    This hearing gives those of us in Congress an opportunity 
to hear from people involved in substance abuse prevention and 
treatment on the front lines in our local communities. In 
crafting national policies to reduce drug abuse and related 
problems, we need to learn first-hand what works and what 
doesn't. I am, therefore, very pleased to welcome our witnesses 
today, each of whom has substantial experience in these areas. 
For our first panel we will be joined by Dr. Frank Lieggi, 
executive director of the Way Back Inn; Ms. Bettie Foley, 
associate director of Haymarket Center; Mr. Brad Olsen of the 
Center for Community Research at DePaul University, and Mr. 
Dennis Deer, president of Deer Re Hab Services. Also on the 
first panel, we'll have Assembly Woman Constance Howard. For 
our second panel, we will be joined by the Reverend Albert R. 
Housler, of Faces of Recovery, Gateway Foundation, Inc., Mr. 
Kevin Downey, director of operations at TASC, Ms. Dorothy Reid, 
president of the Oak Park NAACP Branch, and Mr. Jesus Reyes, 
director of social services at the Circuit Court of Cook County 
and Terrie McDermott of the Cook County Sheriff's Office.
    We welcome you all and look forward to your testimony on 
these important issues. At this point, I'd like to turn this 
over to my friend and colleague and Congressman Danny Davis.
    [The prepared statement of Hon. Mark E. Souder follows:]
    [GRAPHIC] [TIFF OMITTED] T7384.001
    
    [GRAPHIC] [TIFF OMITTED] T7384.002
    
    [GRAPHIC] [TIFF OMITTED] T7384.003
    
    Mr. Davis. Thank you very much Mr. Chairman. And first of 
all, let me commend you and representative, Elijah Cummings, 
who is the ranking member of this committee for the tremendous 
leadership that you have both shown as you have traveled 
throughout the country gathering information, listening to 
citizens, trying to find out how we can more effectively deal 
with the whole question of drug use, abuse, and its 
relationship to crime in our country. I am actually amazed, and 
must express tremendous appreciation, as I have observed the 
way that on almost every issue that comes up, every bill that 
we have to deal with someway or another, you try and find a way 
to make sure you got the interest of this committee reflected 
in that legislation. Most recently, I was watching, as we 
debated homeland security, and as we developed a new 
relationship for many agencies and organizations throughout the 
country as we reorganize the governments, and every time I look 
up, there would be Mark Souder, right there putting in, let's 
make sure that we understand the role that drugs play. Let's 
make sure that we try and intercept. Let's try and make sure 
that we try and keep those out that should not be coming in. 
Let's make sure that we have treatment for those individuals 
that are in need of it. And my mother always told us, you give 
honor where honor is due. And not withstanding partisan 
politics and different sides of the aisle and that kind of 
stuff, I really think you do a great job as chairman of the 
subcommittee and we are delighted to welcome you to Chicago.
    I also want to thank all of those who have been taking time 
from whatever it is that you might have been doing, or would 
have been doing at this moment, to come and testify. Many 
people don't give great credence to this whole concept of what 
democracy really means. To me, democracy means that every 
member of a free and democratic society has some responsibility 
for determining what that society is. And that when we don't do 
that, we actually abdicate our citizenship responsibilities. If 
we simply leave it up to somebody else to determine what our 
policies and practices are, then it means that we have not 
really understood what it means to live in America. And so when 
you come and testify, you are helping those of us who might 
have the ultimate in terms of the responsibility to decide, but 
we decide, hopefully, based on what it is that you have told 
us, what it is that you have learned from your professionalism 
in an area. What it is that you have learned from living 
whatever the experiences are that you bring to a hearing, or 
that you give to us. So, I thank you. Also, I would just 
mention the fact that I want to thank TASC because I read this 
information every time I get a chance. But, just if we look at 
our own area, Cook County, where since 1984 the drug arrest 
rate in Cook County has tripled to over 80,000 persons per 
year. By 1994, 1 out every 1,000 people in Cook County had been 
arrested for drug-related offenses. Now, the numbers, 
approximately 1 out of every 700, up to 75 percent of both male 
and female arrestees in Chicago test positive for drug use, the 
average daily population the Cook County jail has been above 
10,000 since 1995. Drug cases comprise more than 50 percent of 
all felonies charged in Cook County. And now, there are more 
drug felonies charged than total felonies charged in any year 
before 1998. And so just looking at those figures that TASC has 
put together, I mean you can see that there is probably no area 
of the country that has more of a need, or more of a problem 
than what we experience here in Chicago and in Cook County. And 
so, this hearing is indeed a welcome sight; and, Mr. Chairman, 
I ask unanimous consent to have the opportunity to present 
written testimony and a written statement for the record.
    Mr. Souder. Thank you, distinguished Member from Chicago. 
Before proceeding, I would like to take care of a couple 
procedural matters first. I ask unanimous consent that all 
Members have 5 legislative days to submit written statements 
and questions for the hearing record. That any answers to those 
written questions provided by the witnesses also be included 
into the record. No objection. So ordered.
    Second, I ask unanimous consent, all exhibits, documents 
and other materials referred to by Members and the witnesses 
may be included in the hearing record. And that all Members may 
be permitted to revise and extend their remarks. No objections. 
So ordered.
    Now, if the first panel would come forth. Ms. Howard is on 
the end here; Dr. Lieggi, Ms. Foley, Dr. Olson, and Mr. Deer. 
And if you will remain standing. As an oversight committee, it 
is our standard practice to ask all of our witnesses to testify 
under oath.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that the witnesses have 
each answered in the affirmative. The role of the subcommittee 
in which we serve is to look at the holistic picture of the 
Federal Government, we have appropriating committees, we have 
authorizing committees, and our job is to see that laws are 
being executed, and the problems are being tackled the way the 
Congress intended. And we do hearing promotions, and we try to 
get, when possible, into key cities around the country to learn 
what's actually happening at the grassroot, and see what things 
that we can do on a daily basis.
    Now, we are unusual because we also have the authorizing, 
in other words, we set the policy, and next year we are re-
doing the Office of National Drug Control Policy, and the 
things that go under that, including the National Media 
Campaign, Committee on Drug Initiatives, and so we both oversee 
and write the programming for that office. So, we appreciate 
you each taking the time today. And we appreciate Congressman 
Davis's leadership on the committee and the importance of 
Chicago and the national mix. Sometimes it seems like New York 
and L.A. get all of the attention, we in the Midwest don't get 
any. It is helpful to have a speaker from this region, too, who 
is helping with Congressman Davis to make sure Chicago gets 
represented. So, we will start out first with Dr. Lieggi.
    Mr. Davis. Mr. Chairman, could I just take a moment to 
acknowledge the presence of Alderwoman Emma Mitts, who has 
joined us, a member of the Chicago City Council from the 37th 
Ward. Alderman Mitts, we are delighted to have you.
    Ms. Mitts. Thank you.
    Mr. Souder. Thank you for being here.
    Ms. Mitts. You're welcome.
    Mr. Souder. Dr. Lieggi.

STATEMENTS OF FRANK A. LIEGGI, EXECUTIVE DIRECTOR, THE WAY BACK 
INN, INC.; BETTIE FOLEY, ASSOCIATE DIRECTOR, HAYMARKET CENTER; 
    BRADLEY D. OLSON, CENTER FOR COMMUNITY RESEARCH, DEPAUL 
  UNIVERSITY; AND DENNIS DEER, PRESIDENT DEER RE HAB SERVICES

    Mr. Lieggi. In my mind there is no doubt that treatment is 
a deterrent to crime for substance abuse patients. My interest 
in what I wrote about was basically my interest in speaking 
things primarily on how to, if you will, tweak out the existing 
drug court system, and how it works with treatment providers in 
our area. And the Way Back Inn is a facility that pushed us 
back a little bit, we have been for 27 years, and we serve both 
men and women who are adults, and we have been working closely 
with the drug court for the district drug court.
    The drug court has been a fantastic thing. However, their 
numbers seem to reflect poor outcomes as far--over the last 
couple years, 300 came before the drug court and 19 had 
graduated the drug court. And I think that's my analysis of 
what's going on with that, is that there needs to be some 
changes that may need to be made, and one of those changes, 
that if a judge is going to have drug court, one of my 
recommendations would be that they have certification in 
substance abuse treatment. They are making determinations right 
there in front of the client, and although that they do have 
some professionals with them, they are the ones that are making 
the choice about how long a client is going into treatment, and 
generally those lengths of times are short.
    We also believe at The Way Back Inn that it may be helpful 
for the community provider to not only be present in the drug 
court to assess and take the clients back with them, but also 
to help make that decision about whether a client needs to be 
in, and that decision should come from the provider, the 
community provider, and not fall into a legal type of decision 
that is made. I think with that would be quite more effective 
in graduating more clients than 19 of the 300 that we have.
    For instance, if a client is committed to 90 days at our 
facility, The Way Back Inn, which is a residential extended 
care facility, on the 91st day they are typically gone, and 
that we would not say 90 days. We would make a determination 
between 3 and 6 months of treatment. Most of the clients that 
come before the drug court report have a significant drug 
history, and outpatient counseling typically isn't the best, or 
the most appropriate form, but that seems to be where a lot of 
clients get referred to, even though, despite they have a long 
history of substance abuse treatment in the past.
    So we think long-term treatment is what's proven for 
clients who have legal problems as well as substance abuse 
histories, and we would like to see more long-term treatment 
and decisions about length of stay come from the community 
providers, rather than the judge.
    Mr. Souder. Thank you very much.
    [The prepared statement of Mr. Lieggi follows:]
    [GRAPHIC] [TIFF OMITTED] T7384.004
    
    [GRAPHIC] [TIFF OMITTED] T7384.005
    
    [GRAPHIC] [TIFF OMITTED] T7384.006
    
    [GRAPHIC] [TIFF OMITTED] T7384.007
    
    Mr. Souder. We will take each of your testimony, and then 
come back for questions of each one of you. The green lights, 
and yellow, and you won't be shot if you hit the red, but we do 
try to stick to our 5-minute rule. And your full statements 
will be in the record, and then we'll ask questions in followup 
to your testimony.
    Ms. Foley.
    Ms. Foley. Thank you, Chairman Souder, and Congressman 
Danny Davis for providing me the opportunity to testify before 
your subcommittee this morning. My name is Bettie Foley, and I 
serve as associate director of Haymarket Center, a 
comprehensive substance abuse treatment and related services 
facility located on the near westside of Chicago. Founded in 
1975 by Monsignor Ignatius McDermott, to whom we fondly refer 
to as Father Mac.
    Haymarket currently offers integrated treatment services to 
an average of 13,000 clients annually, making us the largest 
drug treatment abuse center in the city of Chicago, and the 
third largest in the State of Illinois. For over 25 years, we 
have remained committed to providing each of our clients with 
the maximum chance for sustained recovery from addiction so 
that they may become productive members of society. We achieve 
this goal by offering a continuum of care to each Haymarket 
client. This continuum is the integration of drug abuse 
prevention and treatment, health services, including HIV/AIDS 
screening and prevention, day care, parent training, vocational 
education, job placement, and screening for domestic violence, 
and gambling addiction.
    We strongly believe that a treatment program should not 
only include recovery from substance abuse, but it also should 
go to the next step, in providing substance abusers with the 
tools to re-enter the world of independence. One of our 
signature programs, the Alternative to Incarceration program 
offers non-violent drug offenders who have accepted 
responsibility for their alcohol and/or drug-abusing behavior, 
a disciplined, yet supportive environment for which they can 
re-enter the society at a more productive level.
    Haymarket's ATI program was originally established through 
a collaboration between Haymarket Center and the Cook County 
Sheriff's Office in 1993 to improve community safety for the 
residents of the State of Illinois. Developed cooperatively 
with the Circuit Court including the Cook County judges as well 
as the Social Service Department, and the Sheriff's Department 
to assure program effectiveness and adherence to judicial 
protocol. ATI is a sentencing option for the judges. It 
mandates residential substance abuse treatment in a confined 
environment and may be utilized in lieu of, or in combination 
with, incarceration. Since 1998, a grant from the Bureau of 
Justice Assistance [BJA] has provided funding to enable the ATI 
program to provide its array of services to all offenders 
despite their lack of income and subsequent inability to pay.
    Haymarket's ATI serves as a sentencing option for multiple 
Driving Under the Influence [DUI], Driving Under the Influence 
of Drugs [DUID], and other non-violent offenders who have been 
charged with, and/or convicted of other alcohol or drug-related 
offenses. The length of stay for confinement is in increments 
of 7 days, as per court order. During residential confinement, 
the program provides group therapy, individual counseling and 
treatment planning, alcohol and drug testing, and community 
service performed under the supervision of the Cook County 
Sheriff's Work Alternative Program.
    After confinement is completed, ATI's clients are offered 
the opportunity to enter into a continued care/aftercare 
outpatient treatment regimen for 6 to 18 months. This regimen 
includes monitoring adherence to abstinence, and indicators for 
sincerity in commitment to positive lifestyle change. 
Additional wrap-around services, which vary and depend on the 
identified needs of the individual, include English-as-a-second 
language, literacy, GED classes, vocational training and 
employment services. Each offender's compliance to follow 
through on recommended aftercare programs is monitored by their 
assigned case manager, a designated court monitor or probation 
officer, and through the Illinois Secretary of State's Office 
due to the severity of most DUI/DUID offenses. All of these 
individuals oversee the offender's compliance to treatment 
recommendations.
    Since program startup, ATI served in excess of 3,000 non-
violent alcohol/drug related offenders in a highly regimented 
and corrections formatted approach; 420 clients have been a 
part of the BJA demonstration with more than half of them also 
engaged in the aftercare program. Over 90 percent successfully 
complete their ATI confinement; 80 percent of aftercare clients 
successfully completed, or are currently compliant with, their 
aftercare program.
    Studies have found that non-violent drug offenders are much 
less likely to commit new crimes if they are given treatment 
through special drug courts rather than merely sent to prison. 
In conjunction with the BJA, Haymarket is working with the 
Institute on Crime, Justice and Corrections at the George 
Washington University in Washington, DC, to complete a 
comprehensive process and impact evaluation. Haymarket is also 
committed to undertaking a longitudinal study of the 
effectiveness of the program on overall reduction in recidivism 
and the impact to overall compliance and completion rates with 
low-income offenders, as opposed to those required to pay for 
their continuum confinement and treatment. Haymarket's 
preliminary figures are indicative of the significant impact in 
the amelioration of addiction and addictive behaviors.
    In closing, Haymarket's ultimate goal is to effectively 
treat substance abusers in the criminal justice system, such 
that recidivism is reduced and cost savings are realized. 
Haymarket strongly believes that if more funds were spent on 
treatment as an alternative to incarceration, not only would 
substance abuse rates decline, but there would also be a 
decline in criminal activity and arrests. In addition, 
communities would greatly benefit from the savings achieved 
through lower rates of homelessness and high-risk sexual 
behavior and increased rates of employment and improved health 
status. We are pleased that Haymarket Center's Alternative to 
Incarceration Program may serve as a model program for the 
Nation.
    Thank you for allowing me to speak before your committee. 
And I would be happy to answer any questions.
    Mr. Souder. Thank you.
    [The prepared statement of Ms. Foley follows:]
    [GRAPHIC] [TIFF OMITTED] T7384.008
    
    [GRAPHIC] [TIFF OMITTED] T7384.009
    
    [GRAPHIC] [TIFF OMITTED] T7384.010
    
    Mr. Souder. Dr. Olson.
    Mr. Olson. Hi, my name is Brad Olson, and I'm from DePaul 
University, and the Research Oxford House. Basically, I wanted 
to talk about some of the problems I see with the present day 
substance use and its effect on crime.
    In my statement, I give the estimate of $109 billion that 
it costs the country annually for substance use; and 58 percent 
of that is attributed to crime. However, those are probably 
underestimates because if we just take one crime, for instance, 
domestic violence, The Center For Disease Control and The 
National Institute of Justice estimates that 1.5 million a year 
are either victims of intimate partner rape or physical 
assault. One fifth of the intimate partner rapes are reported. 
One quarter of the physical assaults are reported. So, many 
domestic violence being just one of the many crimes attributed 
to substance abuse, at least partially, we have extreme 
underestimates of the cost, and more importantly, the emotional 
and physical harm it's caused.
    I don't think there is any question that drugs lead to 
crime. Although, scientifically, it's difficult to test. We 
know that some people will commit crimes whether they do drugs 
or not. But some people who take drugs will--would not commit 
crimes ordinarily, would end up committing crimes. Drugs lead 
to impulsivity or decisionmaking, a disregard for social norms 
puts people in desperate situations, and there is no question 
that it contributes to crime.
    Treatment helps. Some of the best research on treatment 
reducing crime is research on in-prison therapeutic communities 
that show random sign studies, that show at least 6 months 
after treatment there is a dramatic reduction in recidivism and 
prisoners were not returning back to prison.
    Also, therapeutic communities in aftercare, after someone 
has been incarcerated, is highly effective. And diversion 
programs out in the community which can often be secured, can 
often be cost-effective, allows the person to be out in the 
community where they can eventually be any way, and those have 
been found to be as effective as the in-prison therapeutic 
communities.
    In terms of prevention, getting treatment for someone 
before they commit a crime, or when they first committed low-
level crimes, it is absolutely necessary, and it is very 
difficult to get an individual who is going to commit a crime 
or is using substances to go into treatment. Usually they go 
into treatment, or a lot of times, when they are absolutely in 
their worst situation, either when they have committed a crime, 
or they are about to, and many are turned away from treatment 
when they have the opportunity to be helped.
    There is some research showing some significant health 
disparities. Caucasian Americans are much more likely to get 
treatment when they need it, than aftercare. And it is one 
thing when this is a health issue, it's another thing when 
substance abuse leads to crime and higher rates in certain 
groups.
    There are many great programs out there. The initiative 
Proposition 36 in California, isn't perfect, but it's a 
promising way to reduce crime and save the State money, and in 
many ways, be a more humane program. And so far, California, 
with Proposition 36, has been meeting many of its projective 
goals, although I think it is important for outsiders to really 
study the data a lot more closely, find out what parts are 
effective, what parts have been funded, how it should be 
modified.
    When it comes to treatment, as been stated earlier, the 
longer people stay in treatment, the better. Of course, that's 
more expensive to keep people in treatment longer. So we need 
some innovative cost-effective programs for individuals who 
abuse substances. There needs to be a focus on more resources, 
employment, housing, medical. There needs to be individuals who 
are being brought into the appropriate type of treatment for 
their stage of recovery, for their position in stages of 
change.
    I think one of the most effective things that can be done 
is really to take all treatment centers and correctional 
agencies and really create better working station systems where 
there is more communication. We need more integration with 
mutual help groups that are cost-effective: Analon, who works 
with the families; Oxford House, completely self-run 
residential program for individuals who can be on electronic 
monitoring and they get social support, self-government, they 
pay for the program, they pay for their rent, and so it's fair. 
So I think we need a lot of different treatments and we need 
the demand out there.
    Thank you.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Olson follows:]
    [GRAPHIC] [TIFF OMITTED] T7384.011
    
    [GRAPHIC] [TIFF OMITTED] T7384.012
    
    [GRAPHIC] [TIFF OMITTED] T7384.013
    
    [GRAPHIC] [TIFF OMITTED] T7384.014
    
    [GRAPHIC] [TIFF OMITTED] T7384.015
    
    Mr. Souder. Mr. Deer.
    Mr. Deer. Good morning, my name is Dennis Deer, president 
of Deer Rehabilitation Services, also the chairman of the 
Seventh Congressional District and Task Force, as well as a 
community resident.
    Substance abuse education and treatment programs are 
imperative in efforts for crime reduction. For example, the 
community in which this hearing is being held today is known as 
North Lawndale. In this community alone, 70 percent of men 
between the ages of 18 and 45 are ex-offenders, and the number 
of women offenders has tripled since 1990. A large percentage 
of the individuals arrested were arrested on drug-related 
charges, yet there continues to be a service gap in the 
accessibility of substance abuse treatment services for those 
individuals in need of such services.
    I am a proponent of the premise that education is not 
neutral. It's either liberating or oppressing. An individual 
can receive education that either puts them into bondage, or 
education that sets them free. Many individuals who become a 
by-product of the criminal justice system have, in many cases, 
received oppressive education. That is, education that has led 
them to make choices that are not conducive to society rules.
    This position is evident according to a study done by the 
Bureau of Justice Statistics. In this study, it was found that 
71 percent of women reported substance abuse problems had no 
history of prior treatment. In essence, these women had not 
received the liberating education that comes with drug-
treatment process. Instead, their minds had been subject only 
to the drug education of the streets. That is, ``Get your high 
on,'' in other words, let's get high. And ``Drugs do the body 
good,'' in other words, this will make you feel good.
    Last week I sat and talked with a group of women at the 
Sheriff's Department of Women Justice Services, where I serve 
as a consultant. The women who are now on the right track to 
establishing systemic change in their lives. The meeting that I 
attended was the second meeting of the Department Ex-
Incarcerated Alumni Association.
    The most interesting part of this meeting was hearing the 
women dialog amongst each other. One woman asked another woman, 
``Why is it that individuals who are incarcerated serve their 
time and then leave the institution just to go back to the 
streets to do the same thing over again?'' Interestingly 
enough, the woman responded and said, ``I can only speak for 
myself. Incarceration is punishment, not education. You sit in 
your cell thinking about all that you have done and how you 
would like to change, but there is no one to show you how to 
change. No one will teach you how to change. So upon release, 
you go back and do what you know how to do, even if you don't 
want to do. It's what you know.''
    It is my belief that substance abuse education and 
treatment are very effective in preventing crime. On the 
contrary, as mentioned earlier, the problem is that there is a 
large service gap as it relates to the number of substance 
abuse education and treatment programs available. Therefore, 
many individuals that would like to access these particular 
services are in many cases turned away. Many are even mandated 
by the Illinois Department of Correction and Treatment Services 
as a condition of their release. But, unable to access such 
services, if an individual cannot ascertain the liberating 
education and treatment needed to transform their lives, then 
the alternative is to go back to doing what they used to do.
    At Deer Rehabilitation Services, it is our belief that 
education is essential to the soul, yet knowledge is not power. 
The belief that knowledge is power is the biggest lie that was 
ever told. Knowledge is potential power. It becomes power when 
one applies the knowledge that he or she has ascertained in his 
or her life. But one must first have access to knowledge in 
order to gain the potential to change.
    Thank you.
    [The prepared statement of Mr. Deer follows:]
    [GRAPHIC] [TIFF OMITTED] T7384.016
    
    [GRAPHIC] [TIFF OMITTED] T7384.017
    
    Mr. Souder. Well, thank you each for your testimony.
    Our first--I should have, also because we have a really 
strong Illinois contingent in our committee, noted that 
Congresswoman Schakowsky has been very active on this 
committee, and on international drug issues, as well as Chicago 
regional issues. And my friend Rod Blagojevich, has been, as 
well. In fact, he and I were in South America together a few 
years ago in Colombia and Peru, and looking at some of the 
source countries where the cocaine and heroine come in. That is 
not necessarily endorsement of his campaign for Governor, he 
and I are good friends, and we had a good discussion about his 
campaign on Thursday, and he did a great job. I want to thank, 
once again, not only those on the panel, but those here in 
attendance for kind of doing God's work in the streets, and 
really trying to reach people, in addition to providing us with 
the testimony today. It is important that we get out and hear 
as much as possible, and say as much as possible as what goes 
on in areas outside of our own area. Through Congressman Davis 
and Congressman Cummings, we did do--we were made even more 
aware of this disparity question and treatment and had a 
hearing in Washington on that very subject. Because there is an 
increasing concern, that particularly in treatment programs, it 
is becoming cost-defined as opposed to needs-defined. And 
trying to figure out how to address that, and also the length 
of treatment, and obviously there have been those concerns and 
sentencing, as well, and how to reach those. I wanted to ask, 
just for further clarification, Mr. Deer, could you explain a 
little bit what your organization does, regarding the 
offenders?
    Mr. Deer. Yes, basically what we do is provide 
psychological services and treatment programs for ex-offenders 
as it relates to those individuals that are recovering 
substance abuse users. But, also, those individuals who are re-
entering society from the Department of Corrections, we try to 
help provide a smooth transition. But, really what we focus on 
is the change of the mind set.
    Mr. Souder. So, how would--What would be some examples of--
Do you just go around the different organizations of different 
things? Do they come into a center, and it's a series of 
programs, what would be----
    Mr. Deer. What we do is connect up with larger 
organizations, like for instance, right now, the majority of 
our work is done with the North Lawndale Employment Network and 
individuals who are ex-offenders actually, who are released 
from the Department of Corrections come through a community 
service delivery system. And what we do is take them through an 
approach which we call right thinking. It isn't that particular 
approach. We focus on the mind set that causes them to make 
some of the choices that they've made in the past. In addition 
to that, we use street language, because many of these 
individuals, you know, you can't use the language that we 
probably talk every day. We have to talk--For instance, we use 
``tip,'' and tip is basically known as a street term, for where 
drug sales are conducted. We use ``gel packets'' because that's 
what they sell on the streets. And so, basically, we use what 
we call replacement therapy. And then that particular therapy, 
we go in and help the individual to re-program to thinking that 
what has caused them to make some of the irresponsible choices 
that they've made in the past.
    In addition, that individual has drug drop-ins on a random 
basis. And if they need treatment, then we connect up with a 
larger organization such as Gateway, Haymarket Center, so 
forth, and so on, to help them ascertain that treatment that 
they need.
    Mr. Souder. I guess I'll jump over to Dr. Lieggi, if you 
can get the microphone over there. You made some fairly serious 
comments about the drug court. Somebody who has been a strong 
supporter of drug courts, and I'm wondering, for example, I 
represent Northeast Indiana, and there we have had a much 
higher success rate in the drug courts. Do you believe that the 
primary problem there is the length of treatment or what; 19 of 
300, is that what you said?
    Mr. Lieggi. Yeah, that was over the last couple of years. 
You know, in mine as being the Fourth District, and our 
facilities are primarily in Maywood and Cook County, than the 
local area over there. We are seeing a great deal of clients 
coming to us without a real clear understanding of what 
treatment, or what--why the sentence of going to The Way Back 
Inn, as opposed to jail time, about the facility, about what it 
is they need to expect out of The Way Back. And basically, what 
happens is it seems to be more of a time. You have to be here 
for this period of time, and we like to make that 
determination, because in most cases, longer-term treatment is 
required. And our hands are tied then, you know, because the 
internal clock for the client is on 90 days from day 1. You 
know, they are already thinking that they are going to be 
leaving at some point. The problems that I am seeing are 
multifaceted problems. One of them is that I don't know if the 
client, themselves, are educated, exactly what to expect from 
this type of treatment until they get to us. And we tell them, 
and they're shocked. Or, the fact that somebody else is making 
a determination by exactly how long, to the day that they need 
to be there, which sets up kind of a dissidence for us and the 
client in terms of----
    Mr. Souder. Is that predominately driven by the cost of or 
is the length of time that the person is under supervision in 
the drug court program.
    Mr. Lieggi. The latter.
    Mr. Souder. The latter. Let me see what's the--Do you work 
for the drug court?
    Ms. Culler. Actually, I work for Cook County Jail, and in 
further addition----
    Mr. Souder. If I want to ask a question, I need you to 
state your name. Will you come to the mic and state your name, 
I have to swear you in, please.
    [Witness sworn.]
    Mr. Souder. Will you state your name clearly for the 
record.
    Ms. Culler. My name is Crystal Culler. I'm a public health 
educator at Cook County Jail. And what I do is teach healthy 
lifestyles, healthy living. Kind of like what he was talking 
about, changing people's thinking. In addition to what Dr. 
Lieggi was talking about, you kept wanting to know if it was 
the amount of time. He mentioned in his statement, I think also 
it's the length of cohesiveness between the treatment 
professionals and the court system itself. In somewhere that is 
not cohesive. It is not getting together and clients are 
falling in between and during that time, they're getting high.
    Mr. Souder. Thank you. Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman, and I want to 
thank each one of the witnesses for their testimony. I also 
would like to just acknowledge the presence of Ms. Adrienne 
Jones, who is assistant to, what I consider to be the best U.S. 
Senate in the country. To Senator Dick Durbin. Ms. Jones, we 
are delighted that you're here. Thank you so much for coming. I 
also would like to acknowledge the presence of Mr. Ralph 
Grayson, who is the Deputy Director of Illinois Department of 
Corrections. Ralph, thank you so much for being here. Listening 
to the testimony, the question that sort of kept running 
through my mind, is, what happens to the individuals after they 
go through interaction? Are you finding that people are able to 
go back to work, or to get employment, and leave anything 
approximating what we call normal lives. And all of you can 
respond.
    Mr. Lieggi. Yes, the program at The Way Back Inn is 
designed that they are employed after 2 weeks when they come to 
us. And that's difficult for some clients with criminal 
backgrounds, but we have participating businesses in our area, 
will hire our guys or women. And, you know, they are not career 
jobs, but they're still jobs that pay decent wages, and allow a 
client to buildup a resume. We also do financial planning and 
start savings accounts for each client. And there is a certain 
amount of money that goes into that from each check. So, at the 
end of the 6-months, which is typically how long the length of 
stay is, they have, you know, some savings, and they have a 
work history, and the most--the fastest program that we have, 
we have outpatient, we have extended residential care for 6 
months. But our fastest is transitional housing. And, you know, 
you can graduate a client and give him a coin, and a little 
ceremony, and they go back to where they came from, and usually 
that triggers use, because of all the associations, abuse in 
their home. Our fastest growing thing is the transitional 
housing. It allows them to keep working, keep saving and live 
in a drug-free environment. And I think that there is a 
continuum, care that needs to happen for these clients to 
successfully become self-sufficient and that is, you know, 
long-term treatment, and transitional housing, and when they 
are in transitional housing, they step down to outpatient. 
Typically, what we have in this country is the opposite. You 
start off an outpatient, if you don't make it, and you still 
live, you get to go to a higher level of care. You know, well, 
that model to me, it might be it doesn't work. The opposite 
model of providing them with places and outpatient aspect of 
the treatment. This is especially important for the drug court 
clients that we have. They need to be able to be self-
sufficient or they'll never make it.
    Ms. Foley. Although I am Associate Director of Haymarket 
Center, I think it's also important for me to note that I was 
on the committee that went to New York and helped receive the 
training for the three drug courts in Cook County. I have 
worked very closely and integrally with the drug courts in Cook 
County. Haymarket also serves a number of the drug court 
offenders. In addition to the fact that I have served for a 
number of years with the Cook County Sheriff's Female Advisory 
Council, so I'm quite vested with women services also in the 
State of Illinois. I think one of the things that Haymarket has 
had to offer that has helped make the successes of its program, 
is the long-term treatment. The opportunity that offers so many 
levels of care, whether it's detoxification, residential 
services, recovery homes, outpatient services, and in multiple 
locations, so that they can stay close to the local communities 
in which our offender/client reside. The other thing, which I 
have brought to the attention both to the State, local, and 
Federal level on a number of occasions, is that the largest 
percentage of our criminal justice population that we serve, 
are DUI offenders, multiple DUI offenders. And one of the 
things that supports us as a treatment provider is the 
oversight of the Secretary of State's Office, as we try to 
monitor through the court system the individual's commitment to 
change. Whether it's getting education, whether it's vocational 
training, employment, etc. It is the backing of the Secretary 
of State's Office to support any type of services that had been 
clinically recommended. And I think this is one of the 
shortcomings of the court system over all, which goes back to 
what you're talking about, which is giving them a number of 
days and then it's over. Where, with the Secretary of State 
oversight, we're talking years. So, that long-term support 
services, long-term oversight, I think does play a major factor 
in this.
    Mr. Davis. Thank you.
    Mr. Olson. I think someone who is coming from the 
correctional system out into the community needs to have 
appropriate social support. The patterns of family enabling, 
the patterns of past friends who use, physical setting. All of 
those things need to be changed, along with the individual. 
There needs to be groups like Al-Anon, and community-based 
organizations that are working with the family. I think, in 
many cases, it's ideal for the recovering individual coming out 
of the correctional system to get into a program where they are 
creating new social networks for people who are not using. And 
as much as they interact with the family, and as much as they 
should be where their home is, a recovery setting like Oxford 
House, where it's all self-run and everyone makes democratic 
decisions. The whole house makes democratic decisions. People 
can stay there for the rest of their lives. It's ideal because 
they are creating social networks.
    Mr. Deer. And my answer to that question is, yes. As hard 
as it is to ascertain employment for individuals who have been 
incarcerated, client success is contingent on first, who 
they're choosing to change for. Many individuals are choosing 
to go through the treatment process simply because the judge 
told them to go through the treatment process. If they're 
choosing not to change for themselves, then that change may 
last for a little while, but in the long haul, failure is 
inevitable. The second thing is, environment; many individuals 
who are attempting to change, don't have a healthy living 
environment to go home to. Individuals in many cases who are 
trying to get off the drugs go home to a situation where their 
father is using, where their mother is using, where, in many 
cases, their children are using, and that's why I think it's 
really important that we move forward to pass the Public Safety 
Ex-Offender Self-Sufficiency Act which would allow for some 
housing for individuals that are in these particular 
situations, because I can try to change as much as I want to, 
but if a person is in my home, who is doing the same thing that 
I'm trying to get away from, sooner or later, I'm going to go 
back to the same old stuff all over again.
    Mr. Davis. Thank you all. And I thank you, Dennis, because 
I don't have to make that point. I think you just made it, and 
I thank you.
    Mr. Souder. We have been joined by Assembly Member 
Constance Howard. I appreciate you coming this morning, and if 
you would like to present an opening statement, we will take 
your opening statement at this point, then we will do some more 
questions. Oh, that's right, I have to swear you in, according 
to our House rules.
    [Witness sworn.]
    Mr. Souder. Let the record show the witness responded in 
the affirmative. It is part of our committee rules that we have 
to do that with each witness.
    Ms. Howard. I understand.
    Mr. Souder. Thank you.

   STATEMENT OF CONSTANCE HOWARD, STATE REPRESENTATIVE, 32ND 
                  DISTRICT, STATE OF ILLINOIS

    Ms. Howard. And good morning, gentlemen. I am privileged to 
testify before you today; and, Honorable Chairman Souder, it is 
indeed a pleasure to be here, and I'd like to thank Congressman 
Davis for extending me the invitation to be able to address 
this extremely important issue. We have only to look at our 
local newspaper headlines to know that drug-related crime and 
substance abuse are on the rise in our Nation. In recent years, 
both Federal and State government leaders have passed a number 
of laws instituting more vigorous sentencing guidelines, and 
longer terms of incarceration. Such actions have caused 
dramatic increase, in the number of non-violent drug-related 
offenders in the prison operation.
    Given this unanticipated impact, we are holding drug-
education programs aimed at preventing drug experimenting and 
reducing people's penchant for addiction may be a more logical 
and cost-effective approach. A crucial distinction must be made 
between the addict and casual user who are arrested on minor 
possession charges, and the dealers, pushers and kingpins, who 
distribute massive amounts of illegal substances, and an all-
coordinated distribution network.
    According to the figures from the Illinois Department of 
Corrections, it is one-half of all of those incarcerations in 
this State are related to non-violent drug offenses. The 
question is, ``Should an effective anti-drug strategy treat 
non-violent drug abusers the same as those involved in narcotic 
distribution?'' The answer is, ``No.'' They are two separate, 
though related problems. Helping average non-violent offenders 
become discontributing members of our population is not only 
moral but it is in our best economic and social interest. 
Academic research fairs out the cost efficiency of treatment of 
incarceration. A study funded by the National Institute of 
Health found that comprehensive drug treatment reduces the drug 
possibility by 57 percent. That drug addicted inmates will be 
re-vested to 37 percent, being less likely to use drugs again. 
Another study, this one by the U.S. Department of Health, found 
that drug treatment reduces arrests rates by 64 percent. A 
study by the Renin Institute found that drug treatment was 70 
times more cost effective than using law enforcement alone, as 
a drug control strategy. Given that alternative treatment 
programs are generally less expensive than housing inmates in 
prison, many of my colleagues in the legislature have shown 
support for this better use of State resources. The general 
assembly recently passed a bill creating alternative drug 
courts. That allowed juveniles who have committed non-violent 
drug offenses to enter a 12 to 18-month treatment program. This 
program has frequent drug tests, and is under the supervision 
of the Chief Justice Circuit Court Legislature, also 
established the treatment center in the Cook County, Department 
for Women, who have been convicted of non-violent drug 
offenses, both of those messages pass the central, actually one 
must be demonstrating very strong support for time and 
incarceration. They need an opportunity to live their lives and 
provide the hope of restitution for citizens, who instead of 
tossing the State money, may contradict to State revenue, 
straight through income and poverty taxes. Unfortunately, like 
other States, ours has a budget through leaders and the 
government to reduce the funding for various adults, taxation 
by $6.9 million. The amortization of this cut, I believe, will 
be a greater cost to State and future incarcerations, than 
receiving treatment soon after they are released from prison 
living in a cell. Given any number, my emphasis is in drug 
treatment, rather than this. My hope that the number of 
offenders returning to prison and using drugs will decrease, 
and this year cost this State $193 billion with respect to 
that, it is imperative that we begin to improve the percent of 
others incarcerated and provide every non-violent drug 
offender.
    I applaud the regional award of $2 million for the Illinois 
Department of Corrections to provide the tentative action for 
serious and violent offenders who return to Illinois 
communities after prison. However, I would ask this committee 
to also consider the benefit of providing strong preventative 
programs that strike against substance abuse through 
established alternative rentention programs for non-violent 
drug offenders.
    In closing, I want to touch on another concern of our 
community in anticipating war on our criminals. That when ex-
drug offenders leave, after they've paid their time and debt to 
society, that they have a chance in society. I submitted a bill 
without success to expunge low crime misdemeanors and make it 
easier for some individuals to get a second chance at life by 
removing prior offenses from their criminal records, reducing 
recidivism, and helping society as we consider our strategy in 
the fight against the war on illegal drugs. We will do well to 
consider additional steps that must be taken as part of 
successful intervention.
    Mr. Chairman and distinguished other members of the 
committee, I applaud you for all your leadership, I commend all 
of you. Thank you for this opportunity to share my concerns, 
and I will be happy to answer any of your questions.
    [The prepared statement of Ms. Howard follows:]
    [GRAPHIC] [TIFF OMITTED] T7384.018
    
    [GRAPHIC] [TIFF OMITTED] T7384.019
    
    [GRAPHIC] [TIFF OMITTED] T7384.020
    
    [GRAPHIC] [TIFF OMITTED] T7384.021
    
    [GRAPHIC] [TIFF OMITTED] T7384.022
    
    [GRAPHIC] [TIFF OMITTED] T7384.023
    
    [GRAPHIC] [TIFF OMITTED] T7384.024
    
    [GRAPHIC] [TIFF OMITTED] T7384.025
    
    [GRAPHIC] [TIFF OMITTED] T7384.026
    
    [GRAPHIC] [TIFF OMITTED] T7384.027
    
    Mr. Souder. Thank you. I want to followup a little bit with 
something said by Mr. Deer on your--I think it's pretty well 
established that for a program to be effective people must want 
to deal with the real dilemma here. What precisely does that 
mean? In other words, in a drug court, what we've seen in some 
cities, the judge mandates whether the individual will be 
heard. We heard that in the Dalmore area, in high-income home 
areas, the penalty is severe with the drug court. Which, I 
think is really part of the reason. Although the term 
reasonable for success with the mandate as well. Do we want to 
do this? I mean, I want to be out of myself for the day going 
to a lecture. Does it mean I really can portray my life? To 
what extent is that committing? Because, for example, you 
quoted in your testimony saying they wanted to do it, but they 
didn't have followup service to enable them to do it. So, does 
really wanting you to do it, if you had a second point, but to 
with what degree does the first point make that decision, as 
opposed to do services?
    Mr. Deer. Yes. In my answer to that, it is my belief, over 
the years of experience that I have, when an individual 
voluntarily chooses to change because they generally get to a 
State where they're uncomfortable with themselves, and if I can 
get through to them they are more apt to do well, they have 
been involved with the drugs in their lives and are sick and 
tired of being sick and tired, of being, you know, on drugs. 
Or, you know, not having a job, so forth, and so on. When we 
have a situation where they are being evicted or told that, 
``Hey, you must change and go along with the process.'' But 
anybody can either make the choice to go through this and get, 
you know, treatment for it, the substance abuse problem that 
you have, or you may end up going to jail. That's another 
problem that I deal with on a daily basis. They say, you know, 
``Hey, I'm not going to get out my mind that I have 6 months in 
jail, because at least I know that I'm not going to go through 
a treatment process for 6 months to a year. So, if I 
voluntarily chose to change because I want to, then I'm more 
apt to move toward that life change and life transforming 
liberation change.''
    Mr. Souder. Let me ask you another dilemma related to that. 
In the mid-'80's when I was a staff with the general committee, 
I was asked, and I went into this huge gang problem, which has 
worked with a lot, and I met some other people who all worked 
there with government, was we need to get alternative programs 
for some of the kids if we are going to get them out of the 
gangs. We found, however, some kids in the gangs increased and 
the reason was because the programs were there for the kids who 
went in the gangs in the first place. The only way not to be 
targeted was to join the gang. One of the dilemmas we have in 
government is, should we make this hard decision. We as 
legislators, having to deal with the people who are following 
the law, who are working hard to pay for their housing, whose 
kids are behaving, and they clearly see the need, if there is a 
violent offender about to come out to try to address that 
question, and the degree it's less than that it becomes, 
whether it's a non-violent offender who is not, in many cases, 
given the fact that they can already barely pay in many cases 
their own housing and their own types of problems, no matter 
how wealthy you are, you can barely make your bills, and, 
therefore, TASC is usually not a very good thing for 
politicians. TASC tries to advocate and that puts us in a real 
dilemma with violent offenders, who don't want to report, and 
yet, they know and lose some of that. From your experience and 
personal knowledge, I would be interested in some of your 
concerns.
    Mr. Deer. And I do think that certainly I agree with what 
you heard being said. I do think that certainly dollars need to 
go toward prevention, in many cases, public opinion some really 
are related to them, because people do see what could happen. 
It's also like, hey, I'm not going to put a bunch of money if 
something--And I don't know if it is going to happen for sure 
or not. I believe that prevention is really the key and the 
change process in teaching some sense.
    When we take a look from the youth file prospective, there 
may be files who they all present poor education in a school 
system, and, thereafter, school programs, and so forth, and so 
on, the person would choose to go there because they would have 
to go on out in the environment. And what I'm trying to say is, 
if we take a look at this from the present situation; people 
are saying that the way for people to sell drugs, what are the 
consequences? I'm saying, educate not from inception, I think 
that is really, yes. We do need money set for violent 
offenders, and as each case, the people that I see daily feel 
like the world has just kicked them to the curb. They feel like 
in every case they come from dysfunctional homes. In many 
cases, they have burned all of their bridges, they showed from 
their comments, they showed from their services, that nobody 
wanted anything to do with them whatsoever. See, if I come to 
you with a program and say, I'm here to make you change and 
first build a rapport. How many of those programs have faces 
that they can recognize faces of individuals from their 
communities, faces of individuals who can actually show you 
that they say, I'm here for you, instead most of the programs 
came from people they don't trust those individuals. And in 
many cases, it's people they have never seen before in their 
lives. To this particular answer, I think that there should be 
partnerships with communities, their leaders and individuals 
who are in a group which have come out so that they can move 
and go out and talk to, you know.
    Mr. Souder. You make a strong point. I don't think 
Congressman Davis wants you to run against him.
    Mr. Deer. I wouldn't do that.
    Ms. Howard. I'd like to support and agree with it. I have 
been a long-time supporter of prevention and early 
intervention. I have worked in the public school systems and 
the private school system for a number of years, and 
communities to support education prevention and intervention 
treatment. Lifestyle change is so important, it is so critical 
that I think it's got to start at the very lowest level in each 
community. It has to bring in with it the schools, the 
education service organization, and the members of the 
community to draw everyone together. Because there is nothing 
better than a recovering person going back out to the community 
with support. And I think this is the thing that we feel that 
there needs to be a partnership for each and every individual 
that has gone through the criminal justice system, and the 
substance abuse program, to help them, not only in the recovery 
programs, but also put them into education training, English as 
a second language, getting vocation training, job training, job 
teaching, job support. All of this is critical. Thank you very 
much, Mr. Chairman.
    Mr. Davis. Your work in this area has become legendary, and 
especially as it relates to the whole question of expungement, 
and yet you indicate that we are having difficulty with 
success. Even though research, even through positive friends, 
even through people who work in the field, continue to suggest 
that the ability to acquire and maintain jobs, as one of the 
most needed goals for individuals, period. Because then they 
can experience self-worth, they can feel that there is some 
hope for them, that their lives can be different than what they 
currently have. Where do you see the next step being as we try 
and deal----
    I'm remembering the expungement summit that we had last 
year downtown. There were over 1,500 people, came on a Saturday 
morning to Garfield Park trying to get their records expunged. 
They came from over the country as far as California; one 
fellow came from Milwaukee, from North Chicago, from Champaign, 
from Indiana, from Michigan, because they had heard about it, 
and yet the law enforcement community especially wanted to 
agree, and of course, not enough members of the legislature, to 
have simply those individuals records' sealed, expunged, so 
that it doesn't count against them. Where do we go?
    Ms. Howard. As I mentioned earlier, I just have not been 
successful in matters, although, I have been trying to do for 3 
years.
    My next step is going to be to file a legislation again in 
January when the new session starts. My mission is to try to 
help those individuals get a second chance again with clean 
records. I think that we as a society, we as a country who talk 
about reflection, who talk about one's pain, one's debt, must 
step up and make a decision to give people a second chance to 
do not do; that means that we don't care about their faith, 
that they can't take care of adults, take care of children, 
children can't get government loans, grants, there are so many 
things that they are not able to do when they become second 
class citizens. I am hopeful that some of my colleagues who 
believe that to support this legislation that they are being 
soft on crime who have a whole different arrest action of some, 
but, of course, I am going to be talking to them and trying 
to----
    We're not talking about people not paying their debt, we're 
not talking about people guilty, we are saying that once 
they've done their time, they're out to get some consideration. 
And mind you, we are talking about the less serious offenses, 
Congressman, they are not heinous crimes.
    As well, the law enforcement agency knows that we are not 
asking that their records be sealed from them. That was our 
intention early on. This legislation will only take the 
information away from those who have ability to give employment 
to the individual.
    So we are not talking about some criminals, violent 
criminals, second crime criminals having to do with changing 
the DUI law, none of that. We are saying the lessor serious 
offenses which, in fact, that would cover a lot of people who 
live in Illinois.
    Mr. Davis. You have done wonders with helping the 
individuals, as I have tried to help them, and I think that if 
others put as much effort into this particular mission as you 
have, then I think that we will be successful. I am certainly 
going to continue to try, as well, I certainly want to again 
thank you, and I really don't have any other questions of the 
panel.
    But let me, just in Illinois, there are 56 job titles that 
an ex-offender can't hold, and so when you talk about 
individuals going through drug treatment, and you are banned 
from 56 jobs, legally you can't get a license to cut hair, you 
can't get a license to be a beautician, you can't get a license 
to be a nail technician. You can't work around a day care 
center. You can't work around a school. You can't be the 
janitor or maintenance man around a nursing home. You can't 
wash dishes in a hospital. You can't work in doctor's office 
and the list goes on, and on, and on.
    In that respect, I guess we are as bad as anybody in some 
other respect, not quite as bad like the State of Florida. 
There were 204,000 African-American males who could not vote in 
the last election; 204,000, that's unbelievable, or you would 
consider the 13 percent of African-American males in this 
country are caught up with records, I mean it's a major 
problem. So I want to thank you again, all of the witnesses, 
for the work that you do and have done and for your testimony.
    I thank you, Mr. Chairman.
    Mr. Souder. And I will offer my time. There is a gentleman, 
Pat Nolan, who has the same issue that he is working on. I am 
sure his organization--they have a division called Judicial 
Fellowship that can actually deal with policy problems, and 
maybe if you haven't talked with them, you can touch base with 
him.
    Ms. Howard. Yes, I'm familiar with him and I'm going to be 
in touch with him.
    Mr. Souder. Pat Nolan has a judicial fellowship division. 
Pat was a State Senator in California working on a case where a 
worker got arrested in a sting operation which was 
questionable, but he was convicted and he has testified in 
court, as well as other places on Capitol Hill, that being in 
prison, seeing it from the inside, then seeing what that does 
with your approach, you and he have a lot of ability to 
communicate to people, where others might not listen because of 
his involvement and his background, his credentials much like 
what you have.
    Ms. Howard. I just mentioned that conversation because I 
know an individual who just received his Ph.D., and, of course, 
I was very happy for him, but as he spelled out in his 
background, he is not able to teach in the public school system 
in this State, and it's really sad. What does one have to do to 
prove that you have decided to do good, that you have decided 
to turn your life around. So we have a lot to do, and I'm going 
to be in touch with Mr. Nolan.
    Mr. Souder. Thank you, thank you. And any additional 
comments that you would like to put in the record, we have the 
book here, and then people will refer to that, and legislators 
will look that over. Thank you again for your work.
    [Recess.]
    Mr. Souder. The second panel can now come forward.
    Mr. Davis. If we could reconvene. We are ready to start the 
second panel. Thank you all very much.
    Mr. Souder. So much more of a commanding voice than mine.
    [Witnesses sworn.]
    Mr. Souder. I want to let the record show that each of the 
witnesses responded in the affirmative.
    Reverend Housler could not be here. We are joined by Ms. 
Sharron D. Matthews, of Safer Foundation. I am glad that you 
can be here.
    Our first witness is Terrie McDermott, from the Cook County 
Sheriff's Department.
    Mr. Davis. Excuse me, but if I could, I would like to 
acknowledge also the presence of Judge Dorothy Cox for the 
Circuit Court of Cook County.

 STATEMENTS OF TERRIE MCDERMOTT, COOK COUNTY SHERIFF'S OFFICE; 
 SHARRON D. MATTHEWS, DIRECTOR OF PUBLIC POLICY AND ADVOCACY, 
 SAFETY FOUNDATION; TIM WHITNEY, SPECIAL COUNSEL, TASC, INC.; 
 DOROTHY M. REID, PRESIDENT, OAK PARK NAACP BRANCH; AND JESUS 
 REYES, DIRECTOR, SOCIAL SERVICES, CIRCUIT COURT OF COOK COUNTY

    Ms. McDermott. Good morning. My name is Terrie McDermott. 
On behalf of Cook County Sheriff Michael Sheahan, I would like 
to thank Congressman Danny Davis, Representative Mark Souder, 
and Elijah Cummings for the opportunity to address this body, 
and bring attention to the plight and crisis of the female 
offender population, not only in Cook County but nationally.
    From 1990 to the present, the female population at the Cook 
County jail has increased by almost 100 percent; 83.5 percent 
of women were booked at the jail for nonviolent crimes that 
include drug offenses and crimes committed to support their 
drug habits, particularly theft and prostitution.
    The drug-dependent woman at the jail suffers from multiple 
risk factors that complicate substance abuse, poverty, psycho-
social problems, mental illness, histories of trauma and abuse, 
and involvement in abusive relationships. Many were sexually 
abused as children.
    The women are the primary caretakers of their children. 
According to recent data collected from a research project 
conducted by the University of Chicago of Women at the Cook 
County jail, the female population is getting older. They are 
single mothers in their mid-thirties with multiple children, 
with over one half having three or more children ranging from 
age 4 to 14.
    The women have a history of substance abuse with multiple 
prior incarcerations and are serving a year or less for drug-
related or property offenses. Also according to a recent 
publication from the National Committee on Crime and 
Delinquency, there are more than 1.3 children in the United 
States that have parents who are incarcerated.
    The University of Chicago study predicts that in Illinois 
alone the next generation will number around 60,000 children 
that will have a mother who spent time in an Illinois prison; 
60 percent of the women in Illinois prisons come from Cook 
County.
    Studies are indicating that children of parents, especially 
mothers show higher involvement in criminal or violent behavior 
and are six times more likely to become involved in the 
criminal justice system in their lifetime. The potential impact 
of having another generation involved in the criminal justice 
system is staggering.
    The Center for Substance Abuse Treatment is convinced that 
addicted women can be helped through comprehensive programs and 
services designed for women that include criteria to treat 
factors associated with substance abuse and trauma.
    According to the Center for Substance Abuse Treatment, 
effective treatment programming does empower the addicted woman 
offender to overcome their substance abuse, to lead a crime-
free life and become a productive citizen.
    The Cook County Sheriff's Department of Women's Justice 
Services was created in December 1999, with the help and advice 
of national experts and is nationally recognized. The purpose 
of the Department is to help women offenders develop healthy 
drug-free lifestyles by healing from trauma and addiction while 
improving mother-child relationships.
    The department currently oversees three comprehensive pre-
trial programs that include a 100-bed residential drug 
treatment unit, a day reporting center known as the Sheriff's 
Female Furlough program, and a program specifically created to 
treat pregnant addicted women known as the MOM's program. This 
unique approach allows the new born and preschool children to 
live with their mom while she is undergoing treatment for 
substance abuse and trauma. This program is housed in an 
offsite facility. To date, the MOM's program is responsible for 
76 babies being born drug free.
    The Cook County Hospital estimates that the cost associated 
with treating a drug-addicted baby in the neonatal intensive 
care unit is around $2,500 a day for approximately 10 days. To 
date, the MOM's program has saved the taxpayers of Cook County 
almost $2 million.
    Traditional treatment programs for substance abuse were 
male modeled and male designed. There was little if any 
consideration to the issues that needed to be addressed for 
women. A colleague refers to this approach as the add women and 
stir concept.
    The Department of Women's Justice Services is committed to 
programs and services that create an environment and program 
development that reflects the reality of women's lives and is 
responsive to the issues of women participants.
    The development of the department's gender and culturally 
responsive programs and services over the past few years have 
lead us to realize that because of the women's background, the 
participants are very high risk and need intensive treatment. 
Therefore, a longer period of treatment is needed.
    The Sheriff, along with Representative Tom Dart, sponsored 
a bill that passed the State legislature in May 2002. It is 
currently on the Governor's desk awaiting signature. The 
concept of the bill is to create a residential and transition 
center for women allowing the Cook County Sheriff's Office to 
place nonviolent women drug offenders in an intensive 
residential and community transition treatment program for a 1-
year alternative sentence to prison. The program, which would 
be operated by the Sheriff's Department of Women's Justice 
Services, would provide a sentencing option for women in lieu 
of a State prison sentence.
    The program will integrate gender-responsive 
interdisciplinary drug treatment, mental health and physical 
health services, parenting skills, family relationship 
counseling, life skills and job readiness training. The female 
participant will also be required to obtain a GED and/or a 
vocational certificate. An aftercare component will provide 
case management, mentoring, and support services for up to 12 
months after program completion.
    Currently, there are no funds to support this initiative, 
but we are actively seeking all avenues of revenue that include 
both traditional and non-traditional means. We respectfully 
request your advice and support with this endeavor.
    The predictions for the future of another generation being 
involved in the criminal justice system are alarming and are at 
a crisis status. It is imperative that we take a different 
approach. Treatment is needed and is necessary. The revolving 
door syndrome must end. We cannot afford to write off the next 
generation.
    Mr. Souder. Thank you.
    [The prepared statement of Ms. McDermott follows:]
    [GRAPHIC] [TIFF OMITTED] T7384.028
    
    [GRAPHIC] [TIFF OMITTED] T7384.029
    
    Mr. Souder. Ms. Matthews.
    Ms. Matthews. Yes, good morning. Thank you. I'm Sharron D. 
Matthews, director of public policy and advocacy for the Safer 
Foundation.
    First, I'd like to thank Chairman Souder and Congressman 
Cummings and our own Congressman Danny Davis and the other 
honorable members of this particular committee for providing an 
opportunity for ex-offenders, community leaders, service 
providers, employers and policy advocates working at the 
community level in Illinois to present our views on this 
particular topic, our experiences, thoughts and recommendations 
on what is arguably one of the most important areas of public 
policy in our Nation today.
    The Safer Foundation is a non-profit organization that was 
established 30 years ago for the explicit purpose and with the 
mission of providing employment assistance and other supportive 
services to ex-offenders to reduce recidivism and, thereby, 
increase public safety. Since 1972, we have had the opportunity 
to work with and on behalf of over 100,000 individuals, and 
have provided employment placement services to over 40,000 ex-
offenders.
    In recent years, there has been noted an increase in the 
number of drug-related offenses and subsequent convictions. In 
our own State, the Illinois Department of Corrections has cited 
in their fiscal year 2001 report that at least 25 percent of 
men, 38 percent of women, and 39 percent of juvenile-committed 
offenses were specifically drug related. These statistics are 
of major concern as we look at the rising problems of substance 
abuse in our society, and in our State in particular.
    Unfortunately, however, the situation is even more critical 
when considering that criminal justice authorities, both 
locally and nationally, indicate that the actual percentage of 
crimes which are drug motivated ranges from 50 to 70 percent 
once you include some of the crimes that are placed in the 
categories of person and property offenses. In a recent 
presentation before the City Club of Chicago that I attended, 
State's Attorney Richard Devine cited a 50 percent drug-related 
crime rate for the State of Illinois. He also mentioned that 
for many who are first time offenders and who have not 
committed non-violent drug offenses, prisons were not the best 
or most appropriate places for them to receive treatment. He 
suggested that alternative sentencing needed to be utilized 
more in such cases as a strategy of intervention, 
rehabilitation and crime prevention. Mr. Devine then went on to 
speak about such a program that his own office has initiated 
which was working well.
    The Safer Foundation does not provide substance abuse 
treatment. We do, however, provide education and pre-employment 
drug testing. We also make referrals for individuals who are in 
need of treatment to several of the agencies that specialize in 
this area of services as part of our in-depth client intake and 
assessment process. Once an individual is referred and enters 
into treatment, at the appropriate time, she or he can return 
to Safer for employment assistance.
    We also have been noting an increase in the number of ex-
offenders who are in need of such referrals and are, therefore, 
very concerned that additional resources, and expanded 
alternative programming are provided as soon as possible to 
more adequately and appropriately address the needs of ex-
offenders who are substance abusers. In addition, we are here 
to suggest that the scope of these proceedings also include a 
review of policies related to the strategy of employment as an 
essential part of any ex-offender substance abuse treatment 
program and re-entry process.
    As rates in incarceration have drastically increased, so 
have rates in recidivism. In a report released by the Bureau of 
Statistics of the U.S. Department of Justice earlier this year, 
it was indicated that one in 32 Americans are now involved in 
the American criminal justice system. The Bureau has more 
recently projected a one in twenty involvement level and a 60 
percent recidivism rate. Due to their substance abuse issues, 
drug offenders are among ex-offenders with higher potential for 
recidivating. Employment is seen as one of the key factors in 
successful re-entry for all ex-offenders. To reduce repeat 
offenses, the employment of substance abusers must also be 
viewed as a central part of their road to recovery. Once able 
to work, these individuals need access to legal and gainful 
employment in order to retain and further their progress on the 
journey to self-sufficiency.
    Unfortunately, however, at a time when so many are in need 
of assistance, there are policies that may serve as barriers to 
their efforts of rehabilitation and subsequent successful re-
entry. Currently, access to public aid benefits, public 
housing, the Pell Grant for college tuition, and State 
occupational licensure all have restrictions, if one is an ex-
offender with drug convictions ranging from misdemeanors to 
felonies. Also several government agencies in recent years have 
adopted more restrictive hiring and employee retention policies 
regarding ex-offenders and, in particular, those with drug 
convictions.
    One may ask how are these policies related to today's topic 
of inquiry? There is a chain of events that may lead to one's 
becoming addicted to drugs, committing a drug-related offense, 
being convicted, and then incarcerated. Fortunately, there is 
also a chain of resources and opportunities once accessed that 
can lead to one's rehabilitation. Unfortunately, however, the 
continuum of access is broken. In addition to there not being 
enough treatment programs and alternative sentencing 
approaches, there is also no or very limited access to 
affordable housing, temporary emergency public aid benefits, 
funds for higher education, or the possibility of better paying 
jobs or self-employment through occupational licensure. Each of 
these resources is critical to a substance abuser's 
rehabilitation process during and post-incarceration.
    According to the Illinois Department of Corrections, women 
are the fastest growing segment of those now being incarcerated 
for non-violent drug offenses. Most are mothers with children 
waiting to reunite with them, but family re-unification 
requires financial resources and housing. However, according to 
the Illinois Department of Human Resources, currently there are 
more than 10,000 families with mothers who are ex-offenders 
with drug offenses that are subject to the Federal ban from 
receiving TANF benefits. On the city level, in Chicago there is 
a bar to public housing for convicted drug offenders. On the 
State level, as reported in a study conducted by DePaul 
University Law Clinic in 2000, 57 of our 98 professional 
occupations that require State licensure have various 
restrictions pertaining to eligibility for ex-offenders.
    These types of policies that were promulgated to prevent 
crime and ensure a quality work force impact particularly hard 
on the rehabilitation quotient for offenders and ex-offenders 
with substance abuse challenges. To address the wider issue of 
these resultant systemic barriers that some policies have 
directly or inadvertently served to promote, the following 
recommendations are offered:
    One, provide more funding for existing and new substance 
abuse education and treatment programs.
    Two, provide funding for early initiation during the 
incarceration period of the delivery of substance abuse 
treatment services, and planning for re-entry, including 
employment, housing, vocational training, family re-
unification, identification of emergency resources, etc.
    Three, given the increasing rate of homelessness among ex-
offenders in general, provide funding for the establishment of 
more longer-termed treatment residential community based 
facilities.
    Four, introduction of Federal legislation to establish and 
provide funding for alternative sentencing strategies that are 
gender and age specific in design for women, men and youth that 
would allow them to stay in their homes or communities in lieu 
of incarceration while receiving treatment and employment 
assistance. The House Bill 1961-an alternative sentencing 
program for women non-violent drug offenders in Cook County 
recently passed by the Illinois General Assembly.
    Five, provide flexibility to States for the allowance of 
ex-offenders with drug convictions to be eligible for, or to 
resume receipt of TANF cash benefits.
    And the last, is establishment of a funding mechanism on 
the Federal and/or State level to provide emergency temporary 
cash grants for 3 to 6 months to ex-offenders who are not 
parents, but our Workforce Investment Act eligible to assist 
them financially until they become employed.
    Your consideration of these suggestions and of the others 
presented today is greatly appreciated by our clients, their 
families, their current and potential employers, our staff, and 
all of our communities. Thank you very much for this time.
    [The prepared statement of Ms. Matthews follows:]
    [GRAPHIC] [TIFF OMITTED] T7384.030
    
    [GRAPHIC] [TIFF OMITTED] T7384.031
    
    [GRAPHIC] [TIFF OMITTED] T7384.032
    
    [GRAPHIC] [TIFF OMITTED] T7384.033
    
    Mr. Souder. We are going to take your testimony first, and 
we will get to the questions afterwards. So, next we will hear 
testimony from Tim Whitney.
    Mr. Whitney. Mr. Chairman, my name is Tim Whitney, special 
counsel for TASC, Inc. TASC is an independent, non-profit 
entity that, by virtue of State statute and administrative 
rule, serves as the linking agent between the criminal court 
system and community-based treatment. We are the largest such 
entity in the country, with a statewide scope.
    TASC's role in connecting the Illinois justice system to 
community-based treatment is as follows: Non-violent offenders 
who demonstrate drug abuse or addiction and meet certain 
statutory eligibility requirements are referred to TASC for a 
comprehensive clinical assessment. As a result of that 
assessment, TASC will determine which candidates are acceptable 
for treatment, based on any number of factors including the 
drug use history, other service needs, and readiness for 
treatment. Those clients who are accepted to TASC will develop 
an individualized treatment recovery plan and place clients 
into the appropriate treatment services in the community, 
including many of the agencies who have testified and who are 
representing here today.
    TASC does not provide the treatment services directly. 
However, we do monitor the offender's recovery progress and 
make regular reports and recommendations back to the court and 
probation. In this capacity, we receive about 12,000 referrals 
a year from the criminal court system and statewide.
    As the entity given the responsibility for setting these 
certain categories of drug-involved offenders on the road to 
self-sufficiency and health, we hold our clients, the clients 
that we serve, to very high standards of participation and 
completion. These fairly rigorous standards recognize that 
recovery from addiction is a long process, it is a challenging 
process, and that further conditions to be discussed here 
today, such as income and housing, have to be satisfied in 
order to increase the likelihood of successful recovery.
    So, in order to be what we call ``terminated successfully'' 
from TASC, an individual must meet all of the following 
criteria: First, completion of their clinical treatment plan, 
which may take 12 months or longer; 4 straight months drug-
free, as determined by drug testing; a stable living 
environment; a legal source of income; and no new arrests or 
convictions.
    Forty percent of TASC clients will meet all of these 
success criteria. And considering the strict nature of each of 
the five criteria, as well as the combination of all five, as 
the ultimate determinant of success, we believe 40 percent is a 
very positive reflection on the impact of our program. This is 
especially true in light of national research that indicates 
that close to two-thirds of offenders who do not receive 
rehabilitative services will recidivate. Most justice programs 
do not even consider important issues such as housing, 
employment when evaluating their effectiveness.
    As far as the 60 percent who don't meet these success 
criteria, the most common reason is by far a violation in terms 
of their probation prior to completion of the treatment plan. 
As a result of the violation, some are sent to jail or prison, 
and some will have their probation conditions amended. Others 
will face changes in their justice status and may be terminated 
unsuccessfully for technical reasons, simply because TASC no 
longer has supervision of the offender.
    For those who are terminated due to failure in treatment, 
it is important to note that an unsuccessful discharge from 
TASC does not connote permanent failure. As I said, treatment 
and recovery are long and difficult processes, which involve 
re-learning certain social, psychological and neurological 
functions, and many individuals go through treatment two or 
more times before lasting recovery can even be hoped to be 
achieved.
    So in closing, what we would suggest of the Federal 
Government, much of which has been mentioned already, is more 
funding for treatment and other communities support services. 
We've heard a number of stories about the number of clients 
served, and generally, it is in the hundreds or the thousands, 
but when we look at the total supervised population in Illinois 
reaching a number up to 200,000, we just can't possibly hope to 
serve a number of people who need these services with all of 
the services that are in place now. We simply need more money 
for treatment.
    Second, and this is on services, and as we discussed other 
issues, like education, employment, housing, child welfare, 
mental health.
    Third, programs that are designed to intervene early in the 
criminal justice involvement, such as the sheriff has 
mentioned, and continued through incarceration and through the 
re-entry process.
    Fourth, recognition of treatment and recovery as a long-
term often relapse-prone process.
    And fifth, recognition and proliferation of programs that 
have proven successful and who are using substance abuse and 
crime, and accountability for those who don't.
    Mr. Souder. Thank you very much.
    [The prepared statement of Mr. Whitney follows:]
    [GRAPHIC] [TIFF OMITTED] T7384.034
    
    [GRAPHIC] [TIFF OMITTED] T7384.035
    
    Mr. Souder. Next we will move to Ms. Reid. Dorothy M. Reid, 
Seventh Congressional District, resident who lives in Oak Park.
    Ms. Reid. Thank you, Chairman Souder, and Congressman 
Davis, and others, for the opportunity to address this body 
today. My name is Dorothy Reid, and I'm a Seventh Congressional 
resident who lives in Oak Park, IL. I am also an elected member 
of the Oak Park District 97 School Board and president on leave 
the Oak Park Branch of the NAACP.
    In addition, I am a democratic candidate for State 
representative in the 78th District.
    My remarks this morning reflect my concern that the State 
of Illinois has not done enough in the areas of substance abuse 
education and treatment programs as deterrents to crime. In 
fact, Illinois, like probably many States, has continued to be 
under the misconception that prison and zero tolerance are the 
most effective deterrents of crime.
    Illinois, according to the John Howard Association, has the 
fastest growing prison population in American. Legislators 
continue to support the notion that incarceration, not 
treatment, is what the public wants to see. The ``lock 'em up'' 
mentality that pervades in Springfield is evident in the 
inability of State Representative Constance Howard to pass the 
expungement legislation. Even a bill that would expunge from 
the record a conviction that was totally in error. The result 
is there are many individuals in Illinois that have to carry 
erroneous convictions for the rest of their lives because some 
Legislators and elected officials do not want to appear to be 
soft on crime. In my view, this is unconscionable.
    Another negative example of the outdated zero tolerance 
approach by legislators is to deal with substance abusers. A 
study by the National Institute of Justice on drug use in 
Chicago revealed that in 1999, over 80 percent of the people 
arrested and booked for felonies and misdemeanors tested 
positive for recent illegal drug use. The John Howard 
Association reported that of the accelerated prison population 
in Illinois nearly three of four prisoners were classified as 
substance abusers. Yet, fewer than 1 percent received 
treatment. Experts, including the former drug czar Barry 
McCaffrey, verify that treatment is cheaper and safer way to 
cut crime than imprisonment. A Rand Corp. study indicated that 
for every one incarceration, every one crime and incarceration, 
would eliminate treatment--treatment would eliminate at least 
fifteen.
    Both New York and Arizona have developed programs to treat 
rather than to imprison non-violent drug offenders. New York's 
program is expected to save taxpayers more than $500 million a 
year. As important, their program will dramatically reduce 
recidivism. Illinois needs to get on board.
    I support changing our laws to make non-violent drug abuse 
offenses health issues, rather than criminal justice issues. By 
emphasizing diagnosis and treatment rather than incarceration 
we could easily double next year's funding for prevention and 
treatment. Incarcerating an adult for 1 year costs up to 
$37,000. Compare that with residential treatment of $15,000, or 
if applicable, outpatient care of less than $3,000 per year. 
Research indicates that treatment reduces both recidivism and 
relapse. Adding community-based care reduces re-arrests even 
further.
    I also support emphasizing education in our correctional 
institutions for substance abuse education, vocational 
education, as well as reinstituting college-level classes. 
Statistics show that 61 percent of prisoners classified as 
regular drug users, do not have a high school diploma. 
Substance abuse and lack of education reinforce and exacerbate 
each other. Breaking that cycle is paramount. And inmates who 
receive educational and vocational training are less likely to 
return to prison after release.
    Congressman Davis of Illinois has showed the Nation that we 
must address the needs of prisoners and ex-offenders. If we 
don't, they shall not only be non-productive citizens, but 
predators within our community. Our State legislators must step 
up to the plate, and show courage. They must change the laws 
and have that result in record numbers of imprisoned substance 
abusers. They must recognize substance abuse need--Substance 
abusers need understanding and treatment, not punishment. It is 
the humane way to solve this burgeoning drug problem in 
America. Punishing the substance offender eventually punishes 
the whole society and accomplishes nothing.
    Thank you.
    [The prepared statement of Ms. Reid follows:]
    [GRAPHIC] [TIFF OMITTED] T7384.036
    
    [GRAPHIC] [TIFF OMITTED] T7384.037
    
    Mr. Souder. Mr. Reyes.
    Mr. Reyes. Thank you, Chairman Souder, and thank you, 
Congressman Davis. I am pleased to be here before you today to 
present testimony in my capacity as director of the Social 
Service Department of the Circuit Court of Cook County.
    In order to place my testimony in context, I will briefly 
tell you about my department. The Social Service Department is 
one of three probation departments in the Circuit Court. It is 
primarily a misdemeanor probation department. The Circuit Court 
of Cook County is the largest unified court system in the 
Nation and it is administered by Chief Judge Timothy C. Evans. 
The Department handles approximately 22,000 misdemeanor court 
referrals each year. The offenses include substance abuse, 
domestic and family violence, sexual offenses, drunk driving, 
petty theft and many other crimes. Underlying substance abuse 
issues, as my testimony will show, are present in a majority of 
the offenders we see.
    My department's mission is to restore the offender to 
useful citizenship. We accomplish our goal through a variety of 
individual and group intervention strategies within our 
department and through linkages with hundreds of community-
based treatment providers, including some of the agencies that 
have presented testimony today.
    The department has a staff of approximately 270, and the 
main point of my testimony today is to tell you that it is not 
possible to accomplish our mission without proper evaluation in 
the possible presence of substance abuse issues and appropriate 
treatment in all our offenders, regardless of the offense that 
brought them to our attention.
    So, I will focus on three areas: No. 1, the prevalence of 
substance abuse in the probation population; No. 2, why 
evaluating for underlying substance abuse issues makes sense; 
and, No. 3, programs of the Social Service Department and how 
we approach the issue.
    The first part, prevalence of substance abuse in the 
probation population. A good place to begin is to review the 
size of the probation population in the United States. As of 
the end of 1996, there were approximately 3.2 million adult 
U.S. residents sentenced to probation. This number represents 
58 percent of the U.S. population of adults under correctional 
supervision, which includes parolees, local jail inmates, as 
well as State and Federal prisoners. Of the more than 3 million 
probationers in the United States, various surveys have found 
that between 50 and 80 percent have a history of alcohol and 
liquor abuse.
    Most probationers have a history of substance abuse. In 
addition, research strongly suggests that substance abuse plays 
a significant role either in a period of time closely preceding 
the offense or during the actual time of the offense. The first 
national survey of adults on probation took place in 1995. That 
survey found that 32 percent were using illegal drugs in the 
month before their offense, and 32 percent were under the 
effects of drugs while committing the offense. More than 20 
percent were on probation for driving under the influence of 
alcohol or other drugs, and 25 percent were intoxicated at the 
time of the offense.
    The demonstrated high incidence of substance abuse and its 
temporal relationship to many offenses compel criminal justice 
agencies to address the issue. It is now quite clear that 
regardless of the type of offense that brings each offender to 
our attention, exploration of the possible presence of 
substance abuse should be standard procedure. A Massachusetts 
task force on substance abuse and the courts concurred, there 
is no other circumstance in our society where there exists such 
a high interaction between the presence of substance abuse and 
the power and leverage of an institution that presently exists 
when the substance abuse or early courts interact. So stated in 
the panel.
    Part two. Why evaluating for underlying substance abuse 
issues make sense? It is important that criminal justice 
professionals look beyond the specific offense that caused the 
individual's conviction. It is intuitively sensible to 
administer substance abuse evaluations to a person convicted of 
driving under the influence and drug-related offenses. For 
example, the 1995 survey of adults on probation is finding that 
probationers sentenced for driving while intoxicated made up a 
fifth of all probationers, and 98 percent confirmed they 
committed the offense while under the influence of alcohol or 
drugs, is really not surprising.
    However, it has not always been thought of as equal, 
sensible to ask other types of offenders about their 
involvement in alcohol and other substances. Studies suggest 
that we really should. The same survey found that 49 percent 
burglary, 48 percent of assault, and 44 percent of violent 
offenders had used alcohol or drugs at the time of the offense 
while the percentage for poverty offenders was 23 percent. The 
least likely to report drug or alcohol use during the offense 
were probationers sentenced for fraud, and it was 13 percent.
    A fundamental question that arises is, ``Can treatment be 
successful in the context of the criminal justice 
environment?'' Research findings strongly suggest that it can. 
A number of studies have concluded that criminal justice 
clients do as well, or better, than others in drug abuse 
treatment. Furthermore, the studies suggest that involvement in 
the criminal justice system helps clients stay in treatment. 
Numerous studies support the efficacy of the treatment of the 
substance-abusing offender. A 1996 position paper of the 
American Probation and Parole Association on substance abuse 
treatment states that, Probation is an effective context for 
treatment to occur. An integrated approach involving 
assessment, treatment-offender matching, intervention, i.e., 
treatment, surveillance, i.e., drug testing, and enforcement, 
in other words sanctions, is an appropriate strategy for 
dealing with drug-involved offenders.
    Evaluating all probationers for substance abuse and, if 
applicable, providing treatment is cost-effective. A 
Massachusetts task force on substance abuse and the courts 
declared that treatment is far cheaper than incarceration. And 
I had some of the same statistics that have already been cited, 
so I won't take your time with that.
    In its 1996 position paper on substance abuse treatment, 
the American Probation and Parole Association states: It is 
estimated that for every $1 invested in treatment of drug-
involved individuals, taxpayers enjoy a $4 return in the 
reduction of costs related to alcohol and drug abuse. A 1994 
study of treatment outcomes in California revealed a $7 return 
for every $1 invested.
    So, having established that number when substance abuse 
issues are present in a large percentage of all probationers, 
that substance abuse treatment has been found to be effective 
with probationers, and that substance abuse treatment in 
probation setting is cost-effective. Another question necessary 
follows, how does a probation department establish mechanisms 
when a detection of underlying substance abuse issues. I will 
answer that question by telling you what we do in the Social 
Service Department of the Circuit Court of Cook County.
    The department's approach to evaluating all clients for 
substance abuse issues is done in one of four ways, depending 
on the offense that brought the client to our department. The 
first two of those ways are for clients whose offenses are 
directly related to drug or alcohol use. They are our DUI 
programming under a treatment program. I won't elaborate on 
those because that is not a main focus of my testimony. 
Instead, I will concentrate on the two approaches that focus on 
evaluating clients and offenses not primarily substance-abuse 
related. Domestic and family violence offenders and those 
falling into our general category of diversified offenses.
    The Social Service Department has one of the first court-
based certified abuser services program in the State of 
Illinois. One of the distinguishing characteristics of our 
Batterer's Intervention Programs is its comprehensive Domestic 
Violence Assessment developed in cooperation with experts from 
the University of Illinois at Chicago. As part of a 
comprehensive assessment of all aspects of the offender's 
background, the domestic violence assessment instrument devotes 
considerable attention to substance abuse issues. Any offender 
determined to have substance abuse-related issues, is brought 
to the court's attention with a recommendation for a 
comprehensive evaluation for substance abuse treatment as a 
precursor to involvement in batterer's groups.
    The literature supports the existence of substance abuse 
issues in batteries. Various studies have concluded that the 
incidence of substance abuse among men in batterer's programs 
is between 50 and 100 percent.
    As part of diversified offenders, all clients that come to 
the department on offenses not primarily related to substance 
abuse, undergo a thorough assessment of criminogenic factors 
known to contribute to involvement in the criminal justice 
system. The case history and case planning interview devotes 
considerable attention to evaluating for substance-related 
issues. Any client found to have the potential for those issues 
is returned to court for a modification of the court conditions 
to include a complete substance abuse evaluation.
    The department's current measurable goals and objectives in 
the summer of 2000 called for the tracking of every client in 
all types of offenses to ascertain re-arrested convictions for 
a period of 1 year following the completion of the period of 
their supervision by the Department. Our offenders are ordered 
for supervision by our department for a period between 18 and 
24 months. Therefore, the first court in this study has yet to 
complete its supervision period.
    In conclusion, it is my belief that evaluating for 
underlying substance abuse issues must be an integral part of 
the comprehensive probation strategy. The evidence of their 
assistance in the general probation population is overwhelming. 
Their role is key. Determinants in success or failure of our 
work is great, as I request to our society. Thank you for 
allowing me to participate in this hearing. In addition to 
thanking Chief Judge Timothy C. Evans for his leadership and 
support in my department's work. I also thank President John 
Stroger and all the Commissioners who work, Commissioners of 
Cook County that continue support. Thank you.
    Mr. Souder. Thank you very much.
    [The prepared statement of Mr. Reyes follows:]
    [GRAPHIC] [TIFF OMITTED] T7384.038
    
    [GRAPHIC] [TIFF OMITTED] T7384.039
    
    [GRAPHIC] [TIFF OMITTED] T7384.040
    
    [GRAPHIC] [TIFF OMITTED] T7384.041
    
    [GRAPHIC] [TIFF OMITTED] T7384.042
    
    Mr. Souder. We have also been joined by Reverend Albert 
Housler, executive director of the Faces of Recovery. As we 
explained earlier, we have to swear in each of the witnesses in 
front of this committee, so that--although I understand that 
God would be even madder than the government, if you could 
stand and raise your right hand.
    [Witness sworn.]
    Mr. Souder. Let the record show that the witness responded 
in the affirmative. Thank you for making time to join us and we 
look forward to hearing your testimony.

STATEMENT OF REVEREND ALBERT R. HOUSLER, DIRECTOR OF THE FACES 
                          OF RECOVERY

    Mr. Housler. As I sit here--and first giving thanks and 
praise to God, because that is who brought me here, to the 
chairman, the Congressman Davis.
    As I sit here and listen to all the statistics, does 
treatment work, and all of the things that kind of brings us to 
this circle. Me representing Faces of Recovery is just not 
enough. I actually represent every addict and every person that 
has been in the criminal justice system. I have a 25 year 
history of substance abuse. I also have a criminal background 
that actually put me in and let me know that I was an addict 
and that I needed help. I work in the field of substance abuse 
as well.
    When I look at all of the bureaucratic things that go on, 
for an individual to get treatment, it kind of encourages me to 
keep pushing for more treatment, more treatment, because I 
honestly understand what has happened here. Most of the moneys 
that have been provided for treatment when I came through, we 
actually had 9 months of treatment, and now it's cut down to 3 
months. And some programs it's cut down to 30 days. I went 
through TASC; I have been part of the probation department, so 
I understand all of the elements that come along with having 
treatment.
    It's about life. It's not about how much money, I mean how 
much do you think your life is worth, and that's where we are 
at here. Do you honestly believe that this person that has a 
minor offense in the criminal court system should have 
treatment?
    Well, I said I had a 25 year history. They didn't catch me 
until I was up to my 24th year. All of the times that I escaped 
the system and all of the times that I wasn't able to get 
treatment when they did catch me, and me realizing that I 
needed treatment, it was there for me. Now if you're caught, 
they're saying, lock them up. I mean, whether it be 1 bag, or 
100 bags, if an individual shows or in a assessment that he has 
been using, or he is an addict, then he deserves to have 
treatment. You are saying, and not you per se, but the system 
is saying, we rather lock you up, whether it was 1 bag or 100 
bags, and you will get better in the penitentiary. In the 
meanwhile, 99 percent of all addicts don't really know they're 
addicts, or the society doesn't know they're addicts until they 
are caught. They don't deal with any issues.
    Today I came because I realize that this is a disease, and 
this is part of mental health, as well as physical health. And 
those moneys need to be increased. Because if you think about 
it, I mean, when I think about where I came from and where I am 
now, it's a whole other world. I think that everybody should be 
able to get some kind of treatment for this disease. And it is 
a disease, gentlemen; I had it for 25 years and I still have 
it. It has to be treated. And the only way that it can be 
treated is funds from the government. TASC, or ASA, all of 
those agencies had to cut their moneys because the government 
has cut their moneys. A lot of people that need treatment won't 
receive treatment; a lot of people that need housing, won't 
receive housing because there is no moneys. They are cutting 
budget on all kinds of health things where this actually 
enables us to have a life. The addict can't live if he doesn't 
get treatment. Can't live.
    And you want to know why when you send them to prison, they 
don't rehabilitate and come out and join society, because they 
have not dealt with the issue that they had prior to going in. 
You know, I'm not a success story, but after 25 years of 
addiction, 7 years of being clean, I have a church that is 
worth $15 million. I work for the Gateway Foundation; I make 
about $60,000. I got all of that because I went through 
treatment and found out what my issues were. And dealt with my 
issues. You can't do that. You want people to re-enter society 
and be productive, give them some treatment. Give the addict 
some money, help them, help them sustain the life that they 
had.
    If you don't do that, you will continue to have tons and 
tons of people in the criminal justice system. You will 
continue to have no housing. You will continue to have--The 
crime rate will continue to go up.
    A lot of people are not bad people. They just have a 
disease that's bad. And we need to start addressing the fact 
that these are really sick people. I'm really a sick person. 
And by the grace of God, I've actually got some treatment and 
start dealing with some of the sickness that I have. If I can 
say more, it would be that if you want to help somebody sustain 
life, give them some more forms of treatment. Thank you.
    Mr. Souder. If I can just followup a little on your 
testimony. You said that you were addicted for----
    Mr. Housler. Twenty-five years----
    Mr. Souder [continuing]. Twenty-five years. What did it 
take, the arrest, to change you?
    Mr. Housler. Actually, I have been arrested several times. 
But the last time that I was arrested, I actually had a public 
defender, who actually was trying to win my case. I actually 
got caught with some heroin. And the public defender told me, 
``Have you used before?'' And I said, ``That's one of the 
reasons that I sell this, because I use, and I don't sell it 
for myself, I sell it for somebody.'' He said, ``I'm not even 
interested in that.'' He said, ``Let me see if I can get you a 
TASC evaluation.'' And he did, and they found out that, you 
know, after the evaluation that I was an addict.
    He took me back in front of the judge, the judge actually 
gave me TASC. I went to Gateway, stayed there 9 months, and 
through the course of that time I actually started dealing with 
some stuff that I have totally forgotten about, because it was 
all blocked out with drugs. So, in essence, well, I mean, I got 
re-entered back into society.
    Mr. Souder. Did that transition, were you still resistant 
in the first part of the treatment program?
    Mr. Housler. You know what, and really to be honest, I was 
so grateful that they offered me treatment, and I wasn't 
resistant at all. I mean, you know, you think about taking a 
ride on the blue bird, which means going to the penitentiary, 
opposed to taking a ride in a TASC car going to some treatment 
facility. And saying, ``Hold it, we want to try and help you.''
    You know, I talked to a lot of clients, I work with the 
Gateway Foundation, and most of their fears are, are you going 
to accept me back into society? Well, it wasn't, you know, 
that's a feeling everybody sees, you know, they use the word 
anonymity, because no one is really, wants to say that I was an 
addict. I don't have a problem with it, because me saying that 
I was an addict enabled me to get some help.
    But, you know, the whole essence of the whole thing is that 
they are not staying long enough to deal with the issues they 
have. Just to give you an example, if you've had, some kind of 
sexual issue, which happens a lot, and you've covered it up 
with using drugs, the initial first 30 days is really just to 
get the fog out. The next 30 days is really something where you 
can actually start to getting your momentum back, to doing 
things, and having your brain actually start working and 
functioning. The next 30 days is you getting close to your 
counselor and being able to talk to him and tell him some of 
the issues that you have, and they actually pry. After that, 
it's time to go. At least in our facility, which is a 90-day 
facility.
    And some facilities, it's not 90 days. It's 30 days and 
some people don't meet the criteria to get 90-day treatment, or 
there is not enough room, or not enough money. So, they don't 
get ample treatment. I mean, you know, if you can use it for 10 
years, and you have been clean for 30 days, how does that 
figure out. You know, you can add it up yourself. It just 
doesn't pan out equally.
    So, what I'm saying is, the longer that you are in 
treatment, the more time that you are able to process those 
things that got you to use them in the first place. You know, 
we all just didn't think it was out of recreation. Some of us 
did it to hide the pain, some of us did it to hide the hurt. 
There is a lot of different reasons that addicts get high, and 
most of them is to skip what they are going to do.
    Mr. Souder. At the Gateway then, offer you a job? Or does 
Gateway have a processor, or would they just dump you back out 
in the street and say good luck?
    Mr. Housler. No, actually Gateway has a--at that time, they 
still do, they have a halfway house that now, actually, once at 
a halfway house, stay there a year, donated my time, and went 
back and filled out an application and I was hired as a chem 
tech at that particular time. And now I am a supervisor for all 
of the chem techs there. So, what I'm saying is, because of me 
having that long period of time. I mean, I'm not saying that it 
works for everybody, but I have seen everybody that has come in 
my class. Everybody, and I wish I can bring all of them here, 
have successfully re-entered back into society. I actually know 
some people that are directors that perhaps----
    Mr. Souder. Do you believe that it takes basically a 
process where spiritually you're broken before you open for 
this? Would you have been as miserable when you were younger 
the first couple of times and on the individual, could you give 
me some thought to that? Because I met many addicts who have 
gone, basically hustled their way from penitentiary programs.
    Mr. Housler. You know, we do have some people that actually 
use it as a resort, for means to live, you know. They already 
know that, well, if I call, say, Gateway, and I've had 
treatment, and I'm looking in to a program that utilizes the 
tool that they instilled in you. So they would call them again, 
and again they would allow them to have treatment. You actually 
can have it once a year providing they have funds, and some 
people do that, which makes it harder for those people that 
really need it.
    But again, it's not about a divine power, it's about the 
individual wanting to stop, you know. Nine times out of 10 an 
individual finds himself in the jail cell, looking at some 
time, realizes that this disease has really beat him. The first 
thing he does when he gets in front of the judge, he says, 
``Listen, I'm an addict,'' and I can't remember the number of 
the law, because I've known about that law, because that is the 
same law that I used. He says, look, I'm an addict, Judge, I 
mean, so help me. And he needs TASC evaluation.
    I wound up in Gateway, but a lot of people don't understand 
that neither. You know, so a lot of guys in jail don't know 
about treatment, you know. Have they heard about it, you know. 
They didn't think it was an alternative for them. Nobody has 
talked to them about it. There is no education about it. When 
you're locked up, you're just locked up. They give you three 
meals a day and a place to sleep, and they lock the door, six 
by nine cell. That's it. There is no education here.
    Then you expect that, well, if you send them to the 
penitentiary, they get down there, and we have all kinds of 
programs, and all of this that you have a whole lot of people 
that are illiterate. And some that are not illiterate, but they 
have been getting high for so long, they just don't care to 
read anything. They want to get down there, do their time and 
come on back. And the minute they get back, the first 
celebration they get is one of their buddies, or somebody that 
they used to get high with, comes up and says, here, and starts 
him all over again.
    You know, there needs to be some provision. There needs to 
be some intervention, and the only way that will happen is that 
we start giving more money for treatment. A lot of different 
places, Haymarket, Gateway, tons and tons of places, actually 
have preventative programs that they are going out and going to 
the judge. I can see that, but if you don't have the money to 
do that, nobody in their right mind is going to listen, and not 
go to the jail now for free. But nobody in their right mind is 
going to go and say, listen here, I'd like to, can I get in 
there and talk with them? You know, they have AA and NA 
meetings in jail, someone who you can go to and speak. But, 
those are in specific areas, and specific programs.
    You know, interventions might have this, and we get a 
chance to go up there and talk, but that suggests, if they said 
that they are substance abuse, what about those individuals 
that have a criminal history of getting high, or getting caught 
with drugs, and nobody has ever told them that, you know, 
listen, you need some help, or, let's talk and find out that 
they do need help, and do some kind of assessment.
    If there is no money, it won't get done. And you're talking 
about the criminal justice system, the probation department, 
TANNON, TASC, and all of these places that provide some kind of 
service, but they can't provide that service to those 
individuals, because there is no money.
    Mr. Souder. Thank you.
    Mr. Davis. Ms. Matthews, did I understand you to say, or to 
suggest, that in the State of Illinois there are individuals 
who can be denied temporary assistance to needy families, 
although they meet all of the criteria in terms of being needy? 
Not having a job. Not having any money. But if they have a drug 
offense, and have been convicted of a drug offense, they can be 
denied welfare?
    Ms. Matthews. Yes, in terms of drug felonies, yes. And 
Illinois I must point out putting welfare reformers first 
enacted by the States, took the softer, if I may use that 
phrase, road in terms of drug bans, drug user bans, because 
there are some States that have harsher bans. However, if you 
go into treatment, there are other types of qualifications that 
they have, or criteria, you may be able to meet--and you have a 
certain level of a drug offense, then you may be able to 
continue receiving assistance.
    However, once you have come out of prison, and for many 
mothers, as many as 10,000 now, their families are vulnerable 
to this and you have a certain level of a drug conviction on a 
felony level. The mother is not now eligble, but the children 
are. But the mother is not any longer eligible necessarily to 
resume the receipt of TANF or be eligible to apply for it in 
the first place. And this number is growing, especially since 
women are the fastest growing segment of the prison population 
in our State, we are going to presume for drug-related 
offenses, as reported the Illinois Department of Corrections, 
in its most recent fiscal year 2001 report. So we have not only 
individuals who are in danger, but we also have now children; 
we have children who are in danger because of this particular 
reform which was, I am sure set up, although with all good 
intentions of being a deterrent to people becoming drug abusers 
and also doing crime to obtain money for their drug of choice.
    But the intents versus the impact and potential harm is 
what we have to look at. We have to look at the total picture.
    Mr. Davis. Well, how do we--How do these people live? I 
mean, people who fall into that category? How do they live?
    Ms. Matthews. By the grace of God, apparently because it is 
not from support by--The support that they need is not given by 
a government or by private industry, and only so much can be 
done by the community, and family members by themselves. So, it 
must be by the grace of God. Because it is not by our grace, 
unfortunately right now, and we need to change that. We need to 
change that.
    We are not just talking about one individual, now we are 
talking about families, we are talking about babies.
    Mr. Davis. Yes, go ahead.
    Ms. McDermott. I believe another reason why they are out 
there surviving also, is they're back in the criminal justice 
system. As we said, women are multiple consumers of the 
criminal justice system and are re-incarcerated numerous times. 
If we took a look at, you know, our population from our day 
reporting center last year and out of the hundred women, on one 
given day, the women had been in the Illinois Department of 
Corrections over a 7-year period three times, or excuse me, two 
times, and the CCDOC at least three times. So it is five times 
over 7 years. They're coming in and out of the system. So there 
is no treatment for them. There is no help.
    Mr. Davis. You know, I was interested, Ms. Matthews, 
especially I tried to generate an amendment when we were 
debating TANF, that would have changed that opportunity for 
States to make those decisions, of course, like Representative 
Howard's efforts at expungement, my amendment also failed. 
Because it seems unconscionable to me that people who are the 
neediest people that you could put your finger on. I don't know 
how you get any needier. But out of the penitentiary, no job, 
no skill, a drug user, no employment, no opportunity, two or 
three children, and you can't get temporary assistance for 
needy families. I just can't imagine how we comply with the 
intent, and yet have those kinds of regulations that those kind 
of rules, that gives State the flexibility to make those 
decisions that way. And some States, of course, do, in fact, 
exercise that flexibility.
    The other question, Mr. Whitney, Ms. Reid, or Mr. Reyes, 
how do you--How do we convince a capitalistic society that when 
we institute these programs, that we are actually making an 
investment, that we have been taught in America adhering to the 
concept of capitalism that there is no such thing that there is 
something for nothing. And that anything you put out, you ought 
to get something back. And so, how do we convince our society 
that what we are talking about is really an investment rather 
than a gift, or giveaway? Or, is it an investment?
    Mr. Reyes. I reckon the problem is really far deeper than 
that. You know, we heat up our water for our tea in the morning 
and we want immediate results. And I think the prior problem is 
that weakens amounts. Citing statistics and there is numerous 
studies that will indicate that investing in treatment is 
certainly cost effective because it is going to save a lot more 
on incarceration which really doesn't do any good, other than 
keep somebody locked up for a while. I think the real issue is, 
we want the immediate gratification in our society. We cannot 
show any immediate result out of this, because how you show 
that by investing money in treatment, that person will never go 
to jail. It's a negative, it's not something you can point to. 
And I think that's really at the heart of this.
    Ms. Reid. I think really it's an investment versus a 
giveaway. What we're talking about today are individuals who 
have gotten caught up in the criminal justice system. But, I'm 
certain that the numbers of individuals who haven't gotten 
caught up in the criminal justice system, who use substances, 
is equally as great. And that treatment needs to be available 
as well. So, that individuals who may not have been caught yet, 
and want to get out of the system can get the treatment that 
they need to stay out of the criminal justice system, so that 
it is not precipitating back on our communities. So, I think it 
is an investment in individuals, regardless of skin color, 
community, drug abuse and substance abuse doesn't know skin 
color, it doesn't know age, it just knows a victim. And so 
unless we invest in the individuals to make sure that they have 
their treatment. Whether they have gone through the criminal 
justice system or not, they were giving up on society. So we've 
got to invest it in the individuals.
    Mr. Whitney. I have three points which are somewhat 
related. First, I think that there is some social shift that is 
occurring. We can use California as an example of that, 
Proposition 36 was essentially a voter mandate. So, there are 
obviously areas of the country where the public is deciding 
that incarceration isn't effective and that treatment is more 
effective. Now, especially for a State like Illinois where we 
have a very large urban area, and a very large county justice 
system. I think we are reaching a point of critical mass, 
especially here in Cook County. With the jail, and as people 
begin to see overwhelming numbers who are coming into the 
system and they hear about recidivism statistics and justice 
statistics just came out through drug offenders that show, 66 
percent of these people will be re-arrested and over half will 
end up back in prison after 3 years. The numbers get to a point 
where people realize that this just isn't working. Whatever we 
are trying, just isn't working.
    The third, is I really think that we have to involve in our 
public policy initiatives involvement communities that are in 
recovery. I mean, I can sit here for hours and rattle off 
statistics. But when the Reverend comes and tells a story of 
redemption like his, I mean, because that has far more an 
impact, so we need to be able to engage those communities and 
with all of them, and get them invested in the process of 
shifting otherwise.
    Mr. Davis. Thank you very much.
    Ms. Reid. Can I followup? I'm sorry. With the individual, 
take a casual user, for example, who worked for Enron, lost 
their job, now has no income and doesn't know how they are 
going to work. They may get into the system that we are trying 
to keep them out of. I just want to put a face on that picture. 
As far as how it can affect us on any given day. You never know 
who is going to be affected or who is going to be unemployed 
without income and be forced to go into the criminal justice 
system to survive, and that ultimately is a substance abuser 
and caught up in the system.
    Ms. Matthews. If I may, Congressman, going back to your 
question of how women are surviving and we are talking about 
consequences, in addition to one of the industries that is 
growing, along with the prison industry, which is a $50 billion 
a year industry now, topped to that one in our country, is the 
industry of prostitution. Many of the women are surviving 
economically. Existing if you will. Simply by making choices 
and I don't absolve individuals of personal choices, but I do 
know if you have limited options, you make decisions that are 
not good for yourself and those you love. So there has been a 
recent study done by the Chicago Coalition on the Homeless in 
terms of Cook County jails, where they have documented that a 
good percentage of the women that we are talking about who are 
drug offenders and have substance abuse challenges are going in 
and out, and in between, in terms of the economic survival when 
TANF is not available and other economic opportunities are not 
available, they are turning more and more to prostitution. So, 
this is another side effect of policies that may have had good 
intentions when initially enacted, but the results are sad, 
very sad and tragic.
    Ms. McDermott. I would just like to reiterate the statement 
regarding children, and that is to have policymakers change 
putting more money into treatment versus incarceration. We look 
at the statistics and we talk about the females having more 
children now, three or more, and the research is telling us 
that these children are six times more likely to be in the 
criminal justice system themselves, we can just do the addition 
and figure out what it is going to cost us in the future. This 
is something that we really have to educate the policymakers 
and public; I think it is critical, I think it is important 
that all is realized what those dollars are going to be, some 
things have done.
    Mr. Davis. Well, thank you all and I would also like to 
acknowledge the presence of Ms. Alda Whitler, who is the under 
Sheriff of Cook County. And also Reverend O.B. Hendricks from 
the Progressive Way Church of God and Christ, that I saw just a 
couple of minutes ago. So, thank you both for being here.
    Mr. Souder. I have a couple more questions. What is the--
Why are so many more women getting arrested now than they were 
before?
    Ms. McDermott. Drug laws. Basically, drug laws.
    Mr. Souder. Are you saying that they were abusing the drugs 
before, but there weren't laws against them?
    Ms. McDermott. Yes.
    Mr. Souder. Was there a particular point when the--was it 
an enforcement change or a law change?
    Ms. McDermott. Law changes. National law changes.
    Mr. Souder. I don't think it was ever legal to use drugs.
    Ms. McDermott. No, the mandatory amendments.
    Mr. Souder. So, it's an enforcement procedure on mandatory 
minimums?
    Ms. McDermott. Yes.
    Mr. Souder. That were the--have you seen a change in the 
sense of grandmothers being able to take care of the kids?
    Ms. McDermott. We have--at one time or another we had three 
generations in the jail. Grandmothers, mothers, and daughters. 
And this is becoming quite a problem. Three generations at 
once. The wealthy, and caretakers primarily are relatives. 
Unless they've gone to prison, and the DCFS takes over.
    Mr. Souder. Is there a flexibility in Illinois law that 
would allow the payments to go to the caretaker?
    Ms. McDermott. I'm not sure.
    Ms. Matthews. Mr. Chairman, the case, where there are 
actually foster parents or someone who the responsibility of 
being the guardians. We do have cases that they call child only 
cases. But again, that is part of a possible solution to see 
more flexibility. Also, you have the issue of mothers, their 
parental rights have been taken away once they are 
incarcerated. Whether they want them to or not, if they do not 
have a situation where there is someone who can step up, who is 
a relative or not, you know, take care of your children, while 
you are incarcerated. So you are seeing the severing of 
parental rights going on also as a result of law changes, so 
that this is a--This is a public policy in terms of impact 
tradgedy.
    Mr. Souder. Isn't it true that relatives, though, don't get 
compensation from the State?
    Ms. Matthews. No, they don't.
    Mr. Souder. I mean, relatives----
    Ms. Matthews. They get a lower level of compensation, if 
any, but the preference is not to provide them with that type 
of support. You have many grandparents. Grandparents, quite 
frankly, helped to save welfare reform in this country. And 
they are the ones who are taking care of the children and they 
can't do it without more assistance, and also it's unfair to 
ask them to. And it's again not the issue. The issue is that we 
have laws that initially had good intent that don't work. They 
are not producing the results that we want. And private 
industry, when you have a product that is not producing, or a 
service that is not producing what we want, you go back to the 
drawing board and you change it. You re-look at it. And that is 
why we are happy that you're here to re-look, and potentially 
to what we are talking about that has happened as a result of 
policies in the 1980's, the 1990's, and also in this century, 
too.
    Mr. Souder. It's a--and I don't mean to engage or get in a 
policy debate, but I would argue that the previous welfare 
system was a total failure in that what we have now is a total 
failure in the highest risk groups, but has actually worked 
well for marginal groups. And what we now have to figure out in 
this mix, because, in fact, we have moved a significant 
percentage of the population off of welfare who have come into 
dependency, and I don't think any social science observer who 
doesn't have an ideological cut can argue that the current 
system for them. If you took a media outreach, it is worse off 
than the system that was before it. And that is why we made the 
shift. But I would argue, and I don't necessarily disagree that 
in those who are mirrored in it, that we have fewer ways with 
which to get out, particularly years ago before the current 
welfare changes in a process of dealing with the highest risk 
populations when I was a staffer on juvenile delinquency and in 
welfare reform. And part of the problem is, what do you do when 
somebody has really hit the bottom? What do you do when they 
don't have extended families and they move to multiple places 
where they're not really particularly wanting to go to church. 
They don't--neighbors don't particularly want them there. Their 
relatives don't particularly want them, we've heard that on a 
couple of panels. When somebody hits the bottom, what do we do?
    And then also in that population, to some degree, I will 
grant that the welfare reform statistics look better because 
the economy was stronger in the last stretch. And that while 
sometimes programs can look worse when the economy--in other 
words, the numbers to some degree get hooked by other numbers 
and aren't directly relevant then. Somewhere in between I think 
we made some progress, but we're trying to figure out now how 
do you deal with the people where the rising tide didn't lift 
them, and where it's fairly disorganized and we have to look 
for creative ways to do that. We don't want to change, bottom 
line, and here I am certainly speaking for the majority of 
Congress, because it didn't and what we need to do is increase 
sensitivity with it, is how we can, not change the social 
statement that drugs are wrong, that not change a incentive 
system and yet realize when somebody, as we heard in the 
Reverend's personal testimony, that when your life is in a fog, 
you're not just going to have the normal reactions to what we 
think are motivations. In other words, just be incarcerated, 
just being told that what you did was wrong is not going to 
change you. Second, because you have issues, which as a 
suburban valley girl term, in addition to her term, that have 
to be worked through, and it's also not going to be true and I 
certainly support it and work with the Europe programs and 
other, it's not going to be just enough to say, oh, you're 
clean now, good luck, because often, nobody wants to employ 
them. They don't have enough certain education skills, a 
variety of things that need to be created. But we need to look 
at some ways that, because with all due respect, and what we 
need out of private communities like this, if you're going to 
reach and get policy changes in the law, is to figure out how 
to get that compromised. I mean, I think it is intriguing to 
look at other caregivers, clearly I visited and participated in 
transition housing programs, I have heard--I was a Republican 
staff director with the Children Youth and Family Committee and 
the House, and I've heard social service people tell me over 
and over for 15 years, as well as my boss, that you save this 
much money by doing preventive programs as opposed to 
incarceration. If that were true, let me assure you that every 
politician and his brother would want to save the money. The 
fact is, it's a tad more complicated than that. The savings 
accrue to multiple agencies, State, Federal and local levels, 
and the cost accrues to whatever is the person doing. 
Therefore, no particular branch of government, no particular 
private sector group make that, because we can't figure out how 
to share the responsibility of the cost as opposed to the gain. 
Now, we've made some progress of that. Let me give you a very 
practical example. If we concentrate on people who are 
incarcerated, we know what the universe is, and that we all 
agree it's too late. But only even in the worst situations, 
there is one study that shows, that if your--both parents have 
been in jail, if both parents are drug addicts, if neither 
parent graduated from high school. If neither person has a job. 
It's the absolute worst thing. One third of those kids will 
never hit the juvenile system in a tough way because somebody 
will reach out to them at church, a neighbor, a coach at 
school, something will happen which means that in prevention--
that some of the people in a prevention program will never hit 
the Federal payroll or for State. Some of those in those areas 
may hit it lightly, may get arrested once or twice, and don't 
go through. So the cost variable is really tough and to the 
rate that we can tackle it, what we know in Congress, and this 
is our biggest challenge, that while, what's happened is there 
is a small but growing group of people who have been left 
completely behind who are disorganized, who are the poor souls 
in the country, and that whether or not it became a risk, some 
people say, well, just wall them off, leave them in West 
Chicago, or other places, not only may it not happen, it is not 
an ethical solution, and so that what we need to look at are 
some creative ways to tackle this. And the hard part is, those 
are the hardest people. They're the hardest people to get 
through job training. The reason they didn't make it through 
school is that they had tough things that, maybe third 
generation in my land, if your great-grandmother, your mom, 
your grandma and you are all in prison, what chance does the 
next generation have there? I mean, I hear a lot of people 
saying, oh, these problems are in the suburbs, too. Let me 
guarantee you they are not in the suburbs to the same extent. I 
don't know anybody whose grandma and mom and child that is in 
prison together. And you can't have a system where you're 
simultaneously saying, oh, it's exactly the same out in the 
suburbs as here, but it's not exactly the same out in the 
suburbs as here. There are higher risk situations, you can't 
say all we need is more money here, but our problems are the 
same as everywhere. The problems are, in fact, concentrated. 
There are different types of problems elsewhere. Obviously, the 
executives at Enron could use an ethical lesson as well, that 
is just as catastrophic to the society. But it's a different 
set. And so the type of testimony you gave us today is helpful 
in a degree you can push us understanding that dilemma of--we 
are--That the reason politicians, may not say suddenly, oh, 
we're going to change some of these laws we looked at. We need 
to look at creative ways is because the people who elected me 
don't want them changed. Because they don't fully understand 
it, so you've got to come up with a way that can explain to a 
broad sense of the population, ways that can work, and can fit 
in their stereotypes; as well as Congressman Davis and others, 
brings it up in committee all the time, until he is a pain in 
the neck, and so he brings it up on the floor, and he says, 
look, the people in my area have this problem, and you may not 
know about it. And that's another way to do it. So, sorry I 
didn't mean to preach because that's not my goal here today, 
but so you can hear a balance. How do we tackle this? This is 
not easy, and it has to be frustrating at your level, because, 
you go, look, we know all these problems and nobody will listen 
to us. And we can tackle it, what we know in Congress, and this 
is our chance to do good.
    Ms. Matthews. Thank you, thank you for all of what you 
said, and for being--offering this opportunity to come. I just 
wanted to say one thing if I may. The one third, that you're 
talking about. The grace of God effect, sort of reaches out to 
them and intervenes so they don't get caught up. And we 
sometimes, you've heard them to the talented tenth who chose 
themselves. But I will say this, it has reached a critical mass 
and the impact in terms of numbers in many of the communities. 
We are talking about collateral damage and it won't be that 
church, that preacher, it won't be that teacher, it won't be 
that business person, because something finally in the business 
ownership left these communities sometime ago. So, on one hand 
I applaud what you're saying in terms of the hopefulness and 
the fact that not all are going to be caught up in this mess. 
On the same point, we are talking about the glass; people who 
refer to the glass as being half empty and half full. I don't 
look at it that way anymore. I look at who's in the glass and 
if they're drowning. So thank you very much for this 
opportunity.
    Mr. Souder. I think one of the biggest challenges is the 
very opportunities in opening up more jobs for minorities and 
enabling them to move out of certain areas. I have a close 
friend who basically--I mean, one of the difficult things is 
for middle class African-Americans, as well as Hispanics, when 
they get the opportunity to leave, what obligations do they 
have in the neighborhoods that they left behind, and the 
question of why would you if you had an opportunity to get or 
stay. In fact, one of the most interesting studies that was 
ever attempted which turned out to be a flop as a study, was 
that they told the project over by Robert Taylor Homes, and one 
of the things that they found in trying to do integrative 
services because one of the big ideas a long time ago when 
Thompson was Governor, was to try--it was the first State--here 
to try to integrated all the services to target. Let's follow 
these kids from the time the mom gets pregnant, until we can 
follow through afterwards. But they found out was that if a mom 
from Robert Taylor Homes was interested enough to go to the 
program for prenatal care, the first thought she was, was I 
want out of Robert Taylor Homes, and that they didn't stay in 
the neighborhood to be able to track them, and so part of our 
problem, the good part is more people have escaped. The problem 
is those who are behind, then when they come out of the 
prisons, they go back into that neighborhood, and every city in 
the country, now that we've had people in the prisons, a higher 
percentage due to the mandatory minimums, and they haven't 
gotten the education, they haven't gotten their treatment, and 
now they're even more discouraged when they come out and 
putting them back into the neighborhoods that have been working 
to try to rehab themselves, and what are we doing about it. The 
Justice Department has multiple pioneer projects right now to 
try to figure out what are we going to do, this is a new 
variation to our problem in the last 5 years. When people say, 
what do you do about drug abuse, what do you do about child 
abuse, what do you do about rape, if you just at look your 
failures, you get really depressed. The truth is that every 
area, Robert Woodson told me this, he said, ``Don't be a 
typical white guy who sits on your duff and pronounces what you 
want in the urban areas, go out and visit people, and 
everywhere you will find a rose blooming somewhere, we've got 
to figure out how to define those, build on them and find the 
programs that are working and they can do it because we can do 
it and if we give up hope, then we will wind up walling off 
certain communities which you can't afford to do.'' Thank you 
once again.
    Mr. Davis. Well, let me just, in terms of closing comment, 
let me make some acknowledgments. I want to thank the members 
of the committee staff for helping us make sure that this could 
happen, and for working with my staff, especially, you all in 
the Washington office, and Tumia Romero here in our district 
office, because without staff work, you are never able to put 
these things together, and when staffs do good work, then, of 
course, they can happen, and everybody can benefit.
    I also would like to acknowledge the presence of our 
district director, I saw Dan Contrale, who is the District 
Director of our staff here in the district office. I want to 
thank all of the witnesses who have come to testify, as well as 
those of you who have come to be a part of the discussion. As I 
listen to the chairman express his understanding of the issues, 
and how difficult it is to bring about change, Mr. Chairman, I 
become more and more appreciative of your efforts. Because when 
you deal with a country as diverse as the United States of 
America, and you deal with the notion and concept of the 
democracy really being what you can extract from your peers. 
Not the notion that there is something going to be available, 
that is often times, a misconception of how democracy really 
works. I mean, democracy works essentially the way that 
Frederick Douglas suggested that it work. And that is struggle, 
struggle, stride and pain. Are the prerequisites for change. If 
there is no struggle, then there is no progress, and so 
struggling with social policy to try and effectuate they may be 
talented, but then there is some individuals who have the 
resilience I've known individuals who come out of the very 
worst environment that you could possibly have, and just do 
extremely well in a number of things. Then I know other 
individuals who come out of a limited environment where the 
broader environment captures their imagination and they get 
caught up in the broad environment and don't make it. Which 
really means that you have to change the total environment in 
order to create the kind of playing field where every 
individual has optimal opportunity. I agree that there are 
individuals who escape and move, but the question becomes what 
about those who are left behind. You can't move a community out 
of a community. Individuals can move out of communities, part 
of the problem with the early war and poverty programs were not 
that the programs didn't work for some individuals, they did. 
But they didn't work for some communities. As individuals would 
benefit, they would leave the communities, and when they left 
the communities would be worse than they were before they left, 
because they were the individuals who were the strongest, who 
were the brightest, who were the most upward mobile, who could 
take advantage of programs and projects and efforts and move 
away and do well for themselves. But just doing all right for 
someone's self is not really the motivation. Trying to make 
America become the kind of America that it has never been, but 
yet has the potential of being. That really is the goal, and 
it's through these processes of interaction through these 
different levels of understanding. Through the experiences of 
different individuals who can inspire and motivate. And, yes, 
through all of the other processes that are necessary in terms 
of the politics of voting, the politics of power, the politics 
of influence, the politics of majority minority. All of it 
becomes part of what happens. And so, Mr. Chairman, I can't 
thank you enough for making yourself available, for making the 
committee and its staff and the staff resources available to 
come and listen and hear and go back with further 
understanding. Ending with the notion that as a society, when 
we reach the point where we can say, If I can help somebody, as 
I pass along. If I can cheer somebody with a word or song. Then 
my living, whether I'm an agency director, whether I'm an 
average citizen, whether I am a Member of Congress, whether I 
am the President of the United States, if I can help move 
America out of yesterday into tomorrow, then my work, my 
living, and my effort will not be in vain. Thank you so much.
    Mr. Souder. I thank you for being part of our national 
debate. If you have any additional statements or information 
you want to
put into our record, and any of the others in the audience want 
to do so, to Congressman Davis, our record will be left open 
for a number of days. With that the hearing stands adjourned.
    [Whereupon, the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] T7384.043

[GRAPHIC] [TIFF OMITTED] T7384.044

[GRAPHIC] [TIFF OMITTED] T7384.045

[GRAPHIC] [TIFF OMITTED] T7384.046

[GRAPHIC] [TIFF OMITTED] T7384.047

[GRAPHIC] [TIFF OMITTED] T7384.048

[GRAPHIC] [TIFF OMITTED] T7384.049

[GRAPHIC] [TIFF OMITTED] T7384.050

[GRAPHIC] [TIFF OMITTED] T7384.051

[GRAPHIC] [TIFF OMITTED] T7384.052

[GRAPHIC] [TIFF OMITTED] T7384.053

[GRAPHIC] [TIFF OMITTED] T7384.054

[GRAPHIC] [TIFF OMITTED] T7384.055

[GRAPHIC] [TIFF OMITTED] T7384.056

[GRAPHIC] [TIFF OMITTED] T7384.057

[GRAPHIC] [TIFF OMITTED] T7384.058

[GRAPHIC] [TIFF OMITTED] T7384.059

[GRAPHIC] [TIFF OMITTED] T7384.060

[GRAPHIC] [TIFF OMITTED] T7384.061

[GRAPHIC] [TIFF OMITTED] T7384.062

[GRAPHIC] [TIFF OMITTED] T7384.063

[GRAPHIC] [TIFF OMITTED] T7384.064

[GRAPHIC] [TIFF OMITTED] T7384.065

[GRAPHIC] [TIFF OMITTED] T7384.066

[GRAPHIC] [TIFF OMITTED] T7384.067

[GRAPHIC] [TIFF OMITTED] T7384.068

[GRAPHIC] [TIFF OMITTED] T7384.069

[GRAPHIC] [TIFF OMITTED] T7384.070

[GRAPHIC] [TIFF OMITTED] T7384.071

[GRAPHIC] [TIFF OMITTED] T7384.072

[GRAPHIC] [TIFF OMITTED] T7384.073

[GRAPHIC] [TIFF OMITTED] T7384.074

[GRAPHIC] [TIFF OMITTED] T7384.075

[GRAPHIC] [TIFF OMITTED] T7384.076

[GRAPHIC] [TIFF OMITTED] T7384.077

[GRAPHIC] [TIFF OMITTED] T7384.078

[GRAPHIC] [TIFF OMITTED] T7384.079

[GRAPHIC] [TIFF OMITTED] T7384.080

[GRAPHIC] [TIFF OMITTED] T7384.081

[GRAPHIC] [TIFF OMITTED] T7384.082

[GRAPHIC] [TIFF OMITTED] T7384.083

[GRAPHIC] [TIFF OMITTED] T7384.084

[GRAPHIC] [TIFF OMITTED] T7384.085

[GRAPHIC] [TIFF OMITTED] T7384.086

                                   - 

</pre></body></html>
